<html>
<title> - PROMOTING INMATE REHABILITATION AND SUCCESSFUL RELEASE PLANNING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    PROMOTING INMATE REHABILITATION AND SUCCESSFUL RELEASE PLANNING

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2007

                               __________

                           Serial No. 110-126

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
39-480 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            DECEMBER 6, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     8
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     9

                               WITNESSES

Ms. Jennifer L. Woolard, Ph.D., Assistant Professor, Department 
  of Psychology, Georgetown University, Washington, DC
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Ms. Deborah LaBelle, J.D., Director, Juvenile Life Without Parole 
  Initiative, Ann Arbor, MI
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
Mr. Jonathan Turley, the J.B. and Maurice C. Shapiro, Professor 
  of Public Interest Law, George Washington University Law 
  School, Washington, DC
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Mr. Fred Mosely, Justice Affiliates, Cleveland, OH
  Oral Testimony.................................................    57
  Prepared Statement.............................................    58
Mr. Ray Krone, exonerated from death row in Arizona after his 
  innocence was conclusively established, York, PA
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62
Mr. Drew Wrigley, U.S. Attorney, District of North Dakota
  Oral Testimony.................................................    63
  Prepared Statement.............................................    66
Mr. Lance P. Ogiste, Counsel, Brooklyn District Attorney, Member, 
  National District Attorney's Association
  Oral Testimony.................................................    75
  Prepared Statement.............................................    77

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable J. Randy Forbes, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................     3
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     8

                                APPENDIX

Material Submitted for the Hearing Record........................   103


    PROMOTING INMATE REHABILITATION AND SUCCESSFUL RELEASE PLANNING

                              ----------                              


                       THURSDAY, DECEMBER 6, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:23 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Scott, Johnson, Jackson 
Lee, Forbes, Gohmert, and Coble.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Gregory Barnes, Majority Counsel; Rachel King, Majority 
Counsel; Michael Volkov, Minority Counsel; Caroline Lynch, 
Minority Counsel; and Veronica Eligan, Majority Professional 
Staff Member.
    Mr. Scott. The Committee will now come to order, and I am 
pleased to welcome you today for the hearing on the 
Subcommittee on Crime, Terrorism, and Homeland Security on 
promoting inmate rehabilitation and successful release 
planning.
    I find it frequently said that when it comes to crime, we 
have a choice: We can reduce crime or we can play politics. The 
politics of crime deals with the emotional approach, which has 
dominated the crime legislation policy for several years. It 
has done little to reduce crime, but we have to assess our 
crime policy and focus on what actually works.
    One of the worst get-tough sound bites that we passed in 
Virginia was the sound bite, ``Let's abolish parole.'' In 1993, 
we elected a governor who promised to and eventually did after 
his election abolish parole; called it truth in sentencing. I 
like to call that half truth in sentencing because, when you 
have parole, everybody says the fact is you cannot release 
anybody early. That is a half truth. The whole truth is you 
cannot hold anybody longer.
    So we had 1\1/2\ to a nominal 10-year sentence. People were 
getting out in an average of 2\1/2\ years. When we abolish 
parole, everybody thinks you are talking about let everybody 
serve 10 years. No, 2\1/2\. Everybody gets the same average 
sentence. That was so bizarre that they had to double the 
average time served to pass the bill to make it look like it 
made sense. So you get 5 years, you serve 5 years.
    Well, when your heartbeat goes back down, you might notice 
that if everybody is getting out in 5 years, while some are 
actually serving 10, why are Willie Horton and Charles Manson 
smiling? Because now those who could never make parole, who 
would pull the whole 10, are now getting out in 5 like 
everybody else.
    The Virginia legislature estimated the cost of that sound 
bite to be about $2.2 billion construction, about $1 billion a 
year operating, but the study of the proposal released by the 
supporters of the legislation said that even if it worked the 
way they envisioned, they would reduce crime by 2.2 percent. 
Since we are talking politics; it is appropriate to note that 
that is within the margin of error of a political poll.
    That analysis involves counting as reductions in violent 
crimes those that would have been committed during the time 
that they would have been on parole. It did not take into 
account those committed by people after they completed what 
might have been a longer sentence so that those crimes would be 
delayed but not saved, nor did it consider the violent crimes 
that would be more likely to be committed because you do not 
have the incentive for parole.
    That is since you know the day you are going to get out the 
day you go in, there is no incentive to get education and job 
training so you can convince the parole board to release you. 
Those, we know, reduce recidivism. Under the parole plan, there 
is no incentive to take that action, nor is there any incentive 
to get a parole plan together so you can tell a parole board 
what you are going to do and where you are going to go. All 
they know is when your date comes, ready or not, here you come.
    Now, if you add back in those ready-or-not-here-I-come, 
those that did not get education or job training, those that 
were not saved but just delayed--remember you only started off 
with a 2.2 percent reduction--it is unclear whether or not you 
are increasing crime or decreasing crime with this proposal.
    Now, it is a dubious plan if it had been free--$2.2 billion 
construction, $1 billion a year operating, per congressional 
district, that is $200 million construction and $100 million 
operating that you could have spent on something worthwhile--
$200 million, you can build about $45 million Boys and Girls 
Clubs. We only spend a couple of million in Head Start. You 
would run out of kids before you ran out of money providing 
summer jobs, college scholarships, all the kinds of things, the 
continuum of services from teen pregnancy prevention, dropout 
prevention, early childhood education, after school programs. 
You could not spend $100 million on those kinds of programs 
that have been proven to actually reduce crime.
    But where has this tough-on-crime approach gotten us over 
the last few years? It has the United States at the point where 
we are the number one incarcerator in the world. We have about 
750 adults per 100,000 population. When everybody else in the 
world is locking up people at the rate of about 50 to 200 per 
100,000, we are at 750.
    China locks up about 119; Great Britain, 145; Canada, 100. 
In some minority communities, not the 50 to 200. In some 
minority communities around the country, the rate exceeds 4,000 
per 100,000. Eight percent of young African-American males are 
in jail today--8 percent--so that we are looking at a situation 
that has us in that situation.
    Focusing more money on incarceration cannot possibly reduce 
the crime rate. What we have to do is invest money where it 
makes some sense.
    Now one of the major problems we are looking at and one 
issue in abolishing parole is the problem of locking up 
juveniles on sentences of life without parole. Throughout the 
world, we have found 2,200 people serving life without parole 
for crimes committed as juveniles, 2,200 around the world. All 
but 12 are in the United States.
    There are better alternatives, and we are going to examine 
those alternatives today, in particular offering education and 
vocational training in prison and reinstating a well-developed 
parole plan at some point for juvenile offenders and for 
others.
    H.R. 4283, the ``Literacy, Education, and Rehabilitation 
Act of 2007,'' will offer inmates incentives to become 
productive citizens upon release by offering reductions in 
sentences for participating in education programs. H.R. 261, 
the ``Federal Prison Bureau Nonviolent Offender Relief Act of 
2007,'' offers early release for prisoners over 45 years of age 
who have shown no propensity of violence. The Juvenile Justice 
Accountability and Improvement Act of 2007 offers every 
individual sentenced to life without parole as a juvenile the 
right to have a parole hearing at least after 15 years in jail.
    Finally, H.R. 4063, the ``Restitution for the Exonerated 
Act of 2007,'' authorizes the attorney general to award grants 
for carrying out programs that provide support services, such 
as education, employment services, legal services, and health 
care to exonerees. We have found that the portion who have been 
exonerated from crime actually have less support than those who 
have served their time for what they had actually done.
    These bills would begin reversing the prison population 
explosion, wasteful spending, and recurring crime that the get-
tough approach to crime has caused, and I encourage my 
colleagues to support these important legislative proposals.
    It is now my pleasure to recognize the esteemed Ranking 
Member of the Subcommittee, my friend and Virginia colleague, 
the honorable Randy Forbes, who represents Virginia's Fourth 
Congressional District, for his comments.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, Mr. Chairman, I would like to, first of all, ask 
unanimous consent to just have my written statement submitted 
for the record.
    Mr. Scott. Without objection.
    [The prepared statement of Mr. Forbes follows:]

 Prepared Statement of the Honorable J. Randy Forbes, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Chairman Scott. I want to thank our witnesses for taking 
time out of their busy schedules to be with us today. I wish I could 
say that I am excited about today's topic but I cannot because we are 
here to discuss how to release thousands of convicted felons from 
prison.
    My good friend and colleague from Virginia expressed his support 
for a parole system. Over twenty years ago, Congress enacted the 
Sentencing Reform Act and created the U.S. Sentencing Commission to 
replace the federal parole system. Parole had proven unworkable. 
Similarly situated defendants received wildly-disparate sentences; 
indeterminate sentencing meant offenders could not anticipate their 
release; and a confusing array of statutes and regulations created two 
mechanisms for determining an inmate's release date.
    Whether you believe the Sentencing Guidelines should be mandatory 
or advisory, these guidelines provide a framework for determinate 
sentencing and equal treatment of offenders. We would be remiss to 
erase the last twenty years in favor of a system that lacks this 
fundamental principle.
    Four pieces of legislation will be discussed today and I want to 
take just a moment to comment on each. The Literacy, Education, and 
Rehabilitation Act of 2007, sponsored by the Chairman, provides 
additional good time credits for inmates who participate in 
educational, vocational, and treatment programs.
    While I support providing these programs in our federal prison 
facilities, this legislation raises several concerns. First, federal 
law currently mandates literacy programs in each federal facility and 
requires each inmate to have a high school degree or make satisfactory 
progress toward earning a degree for the good time credits to vest.
    Second, each prisoner is currently eligible for up to 54 days per 
year of good time credits--or roughly 15% of their sentence. This bill 
would more than double that amount to nearly four months or one-third 
of a prisoner's sentence. Lastly, this bill would return us to 
disparate treatment of offenders by denying additional good time credit 
to those inmates who do not need these various programs.
    H.R. 261, the Federal Prison Bureau Nonviolent Offender Relief Act, 
authorizes the release of federal prisoners over the age of 45 who have 
served half of their sentence and who have not been convicted of a 
crime of violence nor disciplined for violence while incarcerated.
    This bill will grant the release of 12,400 felons from the federal 
system, including those convicted of drug trafficking, larceny, fraud, 
racketeering, money laundering, civil rights violations, immigration 
violations, and perhaps most alarmingly, possession of child 
pornography and online sexual solicitation of a minor.
    H.R. 4063, the Restitution for the Exonerated Act, authorizes a 
federal grant program for re-entry services for exonerees. 
Unfortunately, this bill goes well beyond the truly exonerated. The 
bill provides federal grant money not only to individuals found to be 
factually innocent but also to anyone pardoned at the state level and 
anyone whose conviction is reversed or vacated, regardless of whether 
they are later retried and convicted.
    The House recently passed legislation authorizing $330 million for 
prisoner re-entry programs and services. I supported the Second Chance 
Act and I support extending these programs to people who are wrongfully 
convicted. We should explore this approach rather than creating a new, 
expansive grant program.
    Finally, today we will discuss the Juvenile Justice Accountability 
and Improvement Act. This legislation creates an unfunded mandate by 
requiring states to provide a parole hearing to juveniles sentenced to 
life without parole but does not provide any funding for this 
requirement. The bill even goes a step further by penalizing states 
that fail to comply by withholding 10 percent of a state's criminal 
justice funding.
    The bill requires states to provide the opportunity for a parole 
hearing within 15 years of a juvenile's incarceration and provide 
subsequent parole hearings every 3 years thereafter.
    Sixteen states have abolished parole board authority for all 
inmates, and another four states have abolished parole board authority 
for certain violent offenders. How will these states comply with this 
legislation? The bill also requires the federal government to provide 
similar parole hearings, despite the fact that parole was abolished in 
1987 and despite the fact that, according to a report by Amnesty 
International and Human Rights Watch, there is currently just one 
juvenile inmate serving life without parole in a federal prison.
    Finally, this legislation also returns us to the days of disparate 
treatment by requiring parole hearings to juveniles sentenced to life 
without parole but not to adults. Under this bill, a seventeen-year-old 
tried for murder as an adult and sentenced to life without parole will 
be provided a parole hearing. But his nineteen-year-old co-conspirator 
will not.
    I look forward to hearing from today's witnesses.

    Mr. Forbes. Then I would like to make some comments in 
response to some of your statements.
    Yesterday, in this Committee, we had four bills that were 
handled on the floor. At the end, at the completion of those 
bills, the Chairman of the Committee, Chairman Conyers, thanked 
me for the cooperative way in which we had been able to get 
through those four bills and handle them on the floor and, 
indeed, it was an exemplary day, I think, in getting bills 
passed.
    The Chairman of this Committee is someone I have a great 
deal of respect for, and I consider him a dear friend.
    But I will have to agree with this: I do not think it is 
politics, but I do think there is an enormous disparity on the 
vision between the two political parties when it comes to the 
criminal justice system, and this hearing is an example of 
that, greater than perhaps any that I have seen this year, any 
that we will probably see after this particular hearing.
    I want to begin by thanking all of the witnesses for your 
expertise and your time in being here, but I want to tell not 
you and not the people in the audience today, but any of those 
people who may be listening to this on TV or may perhaps be 
writing something about this in an article somewhere across the 
country that these hearings are important, one, for the 
substance of the bills that we hear, but they are also 
important because the very bills that we bring up show the 
priorities that we have when it comes to the criminal justice 
system.
    I will tell you the way it works, and I have said it 
before. If any of you saw the classic movie ``Casa Blanca'' 
where at the end they say, ``Round up the usual suspects,'' we 
round up the usual witnesses, and we bring in the witnesses who 
are going to testify about the particular bills that we want. 
The majority gets the overwhelming amount, and I think we get a 
couple, you know, that are in there.
    But let me just tell the differences between the two of us. 
I am going to take a little bit longer than usual because I 
think this is such an important hearing.
    Yesterday, we had people who were shot and killed in a 
shopping mall in this country. Are we having a hearing to look 
at that today? No, because we do not have time to do that.
    The number one espionage problem in this United States, 
without any controversy, number one espionage problem, is 
China, talked about by the Attorney General. I have written 
letters. We have pleaded, ``Let us have a hearing on that to 
see what we can do to help stop some of that espionage.'' Have 
we had time to do that? No.
    Mr. Scott. Would the gentleman yield?
    Mr. Forbes. Yes, I will yield.
    Mr. Scott. We are working on that now.
    Mr. Forbes. Well----
    Mr. Scott. It is scheduled for next month.
    Mr. Forbes. Well, Mr. Chairman, all due respect, if it is 
scheduled for next month, I have not been apprised of that, and 
we have been asking for it, and we are not having it today.
    The third thing is when we are looking at gang networks and 
trying to bring gang networks down, are we having a hearing on 
that? No.
    The Ranking Member of this Committee and I have brought out 
a bill that would get tougher on sexual predators. Are we 
looking at that? No.
    And let me tell you what we have time to do. We have time 
to look at these bills, and we have had enormous time to look 
at how we can bring contempt actions against people who have 
problems with the Administration who might be viewed as our 
political enemies.
    Let me take a look at the substance of these bills. He is 
my good friend, you know, but he was not there when that bill 
was put in--in Virginia to abolish parole, so he did not see 
the hours and hours of testimony.
    One of the little facts that was not brought out to you is 
the projections of the 2.2 percent decrease in the crime rate 
did not take into account the fact that the statistics brought 
to us and the big concern in Virginia was that when you looked 
at the crime-prone population in Virginia, the crime-prone 
population was going down and crime was going up. And the big 
fear people had in Virginia was we were right at a point where 
that crime-prone population was going to spike, and the 
criminologists were coming and telling us, and they were 
saying, ``Look, you might only have a 2.2 percent decrease in 
what you had before, but the big thing is what you are going to 
be able to stop that is going to come down the road when that 
crime-prone population hits up if you do not do something to 
stop it.''
    What also was not stated when it was talked about, truth in 
sentencing, I do not care what the average group of people out 
here think about truth in sentencing in that trial. What we 
were concerned about is we were having people sentenced in 
Roanoke to 15 years and people in Norfolk to 2\1/2\ years, and 
we did not think that was fair. And what we were concerned 
about with truth in sentencing was when people walked out of 
that courtroom, did the victim know how many years had been 
given to that defendant? Did the defendant know? Did the 
defendant's family know? Did the jury know? Did the judge know? 
Did the prosecutor know? And when they walked out, they knew. 
They knew after the establishment of truth in sentencing that 
when they got 2\1/2\ years, it was going to be basically 2\1/2\ 
years.
    Before that, they did not know. It was up to the whim of 
some parole board whether they liked the person or did not like 
the person that was charged. When you talked about minorities, 
the head of the state NAACP in Virginia fought me tooth and 
nail on that bill and later came up afterwards and said, ``That 
bill has done more for my community to help with crime and 
create fairness than any piece of criminal legislation I have 
ever known.''
    Now let me look at the four bills that we have. Literacy, 
Education, and Rehabilitation Act. Let me tell you what this 
bill does, if you are listening at home. It creates two lines 
of people when they come into jail. The first line are the 
people who have done what we tell them to do. If you are not 
addicted to something, if you are literate, then you get in 
this line. If you are addicted to something and if you do not 
know how to read and you have not ever taken the effort to do 
that, you get in this line. And to the line number two, we are 
going to give you coupons where if you correct those problems, 
we are going to let you out of jail free. I am saying that is 
not fair.
    But the most egregious one is this get-out-of-jail free 
act. Over and over again, the Chairman of this Committee has 
said, ``We need to trust our judges. We need to trust our 
juries.'' They spend a lot of time looking at pre-sentence 
reports, looking at what they are doing in sentences, and we 
are saying, ``We do not care what you did, Mr. Judge, what you 
did, Mr. Jury. If this person is over 45 and has completed the 
requisite number of years, we are going to let him out of 
jail.''
    Now let me tell you who this includes because there is no 
definition of violence in here. This includes spies who 
betrayed the United States, terrorist organizations, gangsters, 
major drug traffickers, defrauders, people who have swindled 
elderly people out of their money, child pornography offenders, 
and corrupt public officials. Where we normally look at those 
people and say, ``My gosh, they committed a crime when they 
were young. They made a mistake,'' we are going to say, ``You 
serve your whole sentence.'' But if you are 40 years old or 35 
years old and you should have known better and you commit the 
same crime, we are going to let you walk out of jail free after 
that third time? That makes no sense.
    And the last two things that I want to just point out, the 
Juvenile Justice Non-Accountability and Improvement Act where 
we are basically taking some States that have taken juveniles 
and sentenced them to life without parole and we are now saying 
to those States, ``You are going to have to have a hearing 
after 15 years and every 3 years after that.''
    Now let me just tell you how interesting this bill is. The 
alleged murderer of Sean Taylor that has been in the paper 
recently is 17 years old. He is being tried in Florida. 
Florida, undoubtedly, I would imagine, is going to go for life 
without parole for that murderer.
    Interestingly enough, he will be able under this act to get 
a parole hearing after 15 years and every 3 years after that. 
But his co-conspirator who did not do the killing, who may only 
get 20 years or 22 years, will get nothing. It makes no sense.
    And the last and final thing, this restitution for 
exonerees, sounds great, but this includes people who are 
pardoned by governors. Being pardoned by a governor does not 
mean you are innocent. Over and over again, we see people 
pardoned for a number of different reasons, and they are going 
to be included the same as people who are determined to be 
factually innocent.
    So, Mr. Chairman, in all due respect, I appreciate the 
hearing because I think it shows a huge dichotomy. I appreciate 
all the witnesses and what they are going to testify, but I 
really wish we were spending our time dealing with the 
shootings in the mall, the Chinese espionage, gang networks, 
sexual predators, those kind of things because I think they are 
the things that the people watching at home really want us to 
be about and be doing.
    And I yield back the balance of my time.
    Mr. Scott. Thank you.
    The gentleman from Michigan, the Chairman of the Committee, 
do you have a statement?
    Mr. Conyers. I had a statement, but it has now turned into 
some new comments. But I would like to have my statement 
introduced into the record.
    Mr. Scott. Without objection.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    The need to promote inmate rehabilitation is undeniable. Too often, 
we witness inmates being released from prison only to find two-thirds 
of them returning in as little as three years later.
    This constant cycle of ``catch and release'' undermines public 
safety, has led to a substantial expansion in our Nation's total prison 
population, and is reflective of a larger problem that unfortunately 
has become far too synonymous with our criminal justice system. The 
problem, simply put, is the current system fails to meet the 
rehabilitative needs of our growing prison population.
    According to a recent Bureau of Justice Statistics study, for 
example, only 33 percent of Federal inmates who suffered from some type 
of substance abuse received inpatient treatment in the 12 months prior 
to his or her release. Equally disturbing is the fact that of those 
inmates diagnosed with a mental or physical disability, less than 25 
percent of them receive adequate treatment.
    Today's hearing will provide Members with an opportunity to examine 
some of these issues. It will also provide Members with an opportunity 
to:

        1)  consider establishing periodic parole hearings for juvenile 
        offenders who've been sentenced to life in prison;

        2)  debate the need for creating a federal grant program 
        tailored exclusively to exonerees;

        3)  examine the possibility of establishing an early release 
        program within the bureau of prisons that would allow older, 
        non-violent offenders to be considered for early release from 
        prison; and

        4)  consider the possibility of expanding the current ``good 
        time behavior credit'' to provide additional benefits to those 
        inmates who participate in designated educational, vocational, 
        and developmental programs.

    Each of the aforementioned concepts has been included in various 
bills that have been introduced in the current Congress, and each idea 
would go along way towards promoting meaningful rehabilitation.
    Just last month, Members of this body took up and passed H.R. 1593, 
the ``Second Chance of Act of 2007.'' That landmark piece of 
legislation (which currently awaits action in the Senate) represented 
an important first step in our efforts to lower rates of recidivism and 
decrease prison overcrowding. The four bills under consideration today 
represent the next step in that effort.

    Mr. Scott. The gentleman is recognized.
    Mr. Conyers. Because both gentlemen from Virginia recognize 
the importance of this subject--I am glad Mr. Forbes is here, 
and I do agree with him that our cooperativeness on four 
consecutive bills in a row were very important, and they all 
came out of this Committee. And the reason this hearing becomes 
important over and beyond the four recommendations that will be 
coming forward for legislative consideration from our 
distinguished panel of witnesses is overshadowed by this huge 
difference in opinion and perspective from those who create the 
Federal laws in this country.
    As a matter of fact, this difference goes beyond just the 
D's (Democrats) and the R's (Republicans), but it goes to the 
whole notion of whether or not we have a humane system of 
criminal justice, including the judicial system and the trial 
and the incarceration.
    So I am going to be planning a discussion that we may be 
able to have amongst ourselves that, Mr. Chairman and Mr. 
Ranking Member and to my friend Howard Coble and, of course, 
Henry C. ``Hank'' Johnson, and the distinguished gentlelady 
from Texas, Sheila Jackson Lee. I want to have a public 
discussion amongst us without, Chairman Scott, the necessity of 
witnesses, but in which we exchange some of these views.
    I have noted some of the things that Ranking Forbes has 
talked about, and I think I have four of them, there may have 
been more, and I want to address those. I think they are 
important and need to be considered. I have to confess that I 
have not thought much about them before now, but now is the 
time. I appreciate the hearing for bringing this publicly to my 
attention. I know you were not talking to me, but I get the 
message and I think that something should be done about it, and 
if something is not, that there ought to be a public 
description of why.
    Now the thing that moves me about this hearing--and in a 
way, the whole idea of a Crime Committee in Judiciary--is that 
public opinion is so shaped and influenced, and I was thinking 
of a witness that we might want to have--George Lakoff, the 
linguist--come in and talk about how we frame subjects around 
something as inflammatory as criminal justice and what to do 
with prisoners. You never get too far down a discussion trail 
when someone drags out the old herring, soft on crime, or why 
are we opening up the doors and letting out this flood of 
prisoners and so forth.
    But I want to begin this examination of four modest 
proposals from the point of view of how do we think about and 
deal with this huge highly inflamed opinion that exists around 
the subject. And it is my hope that we include this in the 
hearings of this very important Committee.
    I will not go over the statistics here, we will probably 
get them more than once before we get through with four, six, 
seven people contributing to this, but we have a problem that 
needs to be addressed. I think the Chair and the Ranking Member 
are doing an honorable job from their perspectives as to how to 
address this circumstance that causes us to have a Crime 
Committee in the first place.
    When I first got here, we had a Crime Committee, and the 
problems were even more difficult to address here because we 
could not have the free exchange of opinions, Mr. Forbes, that 
we do have here now. I mean, you know, there was only one view, 
and that was it. If you did not like it, you know, do not come 
to the hearing. Here we encourage this interchange because we 
see this as the only way we are going to be able to move 
forward with a greater understanding and consideration for how 
and why people end up incarcerated in the American justice 
system.
    Thank you so much.
    Mr. Scott. Thank you.
    And without objection, the gentlelady from Texas is 
recognized for a brief statement on her bill.
    Ms. Jackson Lee. Let me say good morning to the witnesses 
and thank them very much for their presence here today and 
thank both Chairman Scott and full Committee Chairman Conyers 
for the opportunity, Mr. Conyers, for what you have just 
articulated, to have an enhanced perspective, to look at a 
broader view. And I welcome the informal discussion that you 
have suggested, or formal discussion without witnesses, because 
I think the intent of all of us who have offered legislative 
initiatives is, frankly, to look at a system that is all 
prisoned up. It is all incarcerated up. We have spiraling crime 
rates, as we speak, but yet we have the most incarcerated 
country, both State and Federal, I would imagine, in the world.
    So it is important for a Committee with this broad 
jurisdiction to take a look-see, to take an assessment of where 
we are.
    Frankly, I, too, welcome my good friend. I went to the 
University of Virginia School of Law, so I welcome my good 
friend from Virginia, and his legislative work, I am sure, I 
have studied or it is being studied, let us put it that way--it 
is to be studied now--at the University of Virginia School of 
Law, and he raises a critique that I think, frankly, should be 
addressed.
    I look forward to Professor Turley's testimony because he 
has worked quite extensively with a number of these issues. He 
would know that it is specifically for nonviolent offenders. 
This is the 261 that the Chairman has graciously allowed me to 
speak very briefly on, and that is, of course, the Nonviolent 
Federal Offender bill.
    But it is nonviolent offenders who have attained the age of 
at least 45 years of age, have never been convicted of a 
violent crime, have never escaped or attempted to escape from 
incarceration, have not engaged in any violation involving 
violent conduct or institutional disciplinary regulations.
    We know for a fact that it takes $70,000 a year to 
incarcerate older prisoners. Now we also know that when someone 
is rehabilitated or has the opportunity to transition, for 
example, in a second-chance sort of structure, they can return 
back to society, return back to the community, provide a 
constructive, if you will, economic opportunity, may be able to 
provide restitution to those that they have offended, and may 
as well be able to be constructive.
    Now I am glad to note that my good friend, the Ranking 
Member, has a great interest in Houston because he is quoted in 
the Houston paper, our local paper, and if I might use the 
description, it indicates that ``an anonymous Republican staff 
member'' has defined what they believe this bill actually 
means. They did note that the Federal Bureau of Prisons did not 
comment, and they also noted in the article that I am willing 
to work across the aisle to ensure that we have the kind of 
initiative that is productive.
    They are provocative, of course, because they cite a number 
of individuals like Jack Abramoff and Mr. Fastow and others 
that would be welcomed out of this process. But it would also 
be Mr. Jones, a nonviolent perpetrator, maybe committed some 
kind of fraud, whose family is now languishing between disaster 
and disaster, who if he was released in a rehabilitation 
program, he or she, would be able to provide for that family, 
to come off of the Federal system, and maybe even provide 
restitution.
    This article suggests that this bill, without thought and 
analysis, would provoke the release of those who would have 
perpetrated, be it an embezzler, a burglar, a money launderer, 
people convicted of possessing child pornography. Who is to say 
that those in some way could be defined as violent acts, if you 
will? Certainly, none of us would want to have child 
pornographers, child predators, arsonists and others that are 
alleged to be able to be released under this bill. That is not 
what this bill says.
    It is an opportunity for us to assess whether an overly 
imprisoned State and Nation is, in fact, the best way for us to 
go, and just as an aside, one of the more conservative States 
of which I happen to have come from has an early release 
program, and it is based upon good time. Pennsylvania has one, 
Connecticut has one, and Kentucky has one. And there are many 
other States that likewise have an early release program. And I 
would venture to say that Texas is not known to be liberal when 
it comes to incarceration of those who perpetrate a criminal 
act.
    So this bill gives us the opportunity for constructive 
thought, and it is not a bill that is to give comfort to the 
Jack Abramoffs of the world or others who have been 
incarcerated for various very public and publicized crimes that 
would, of course, provide injury to the society, albeit that 
they might not be violent crimes.
    This is an important discussion. I would ask my colleagues 
as we go forward not only that we listen to the testimony, but 
let us look forward to a bill that may ultimately be modified, 
but addresses the question that many Federal judges have asked 
us to address, which is, if we cannot address it from the 
perspective of the mandatory sentencing, help us balance by 
looking at these inmates, these incarcerated persons, as they 
try to rehabilitate themselves and constructively come back to 
society and help those who they may have harmed, but also help 
their families and relieve us of an imprisoned prisoned society 
that does not work.
    I thank the gentleman for his time, and I yield back.
    Mr. Forbes. Mr. Chairman, will the gentlelady yield?
    Ms. Jackson Lee. I would be happy to yield if the 
gentleman----
    Mr. Forbes. I just want to make sure that I have the right 
bill before me, and the gentlelady was referencing the fact 
that this bill would give people an opportunity. Look, as I 
read the bill, that release would be mandatory. The word 
``shall'' is in there. Am I misreading that? Is there some 
discretionary format that is in the bill, or does not it say 
that they ``shall'' be released?
    Ms. Jackson Lee. The bill presently, Mr. Ranking Member, 
says that on the grounds of being 45 and the criteria that I 
have mentioned, which is not a nonviolent offense, no 
nonviolence, no escape, no other indications of being a 
continued bad actor, that it is a mandatory release. However, 
there is no definition in it as well that lists, as you were 
quoted in the newspaper, a litany of offenses that would 
automatically suggest that they would easily qualify to be 
released.
    Mr. Forbes. And if the gentlelady would be kind enough to 
yield for one additional question----
    Ms. Jackson Lee. I will yield.
    Mr. Forbes [continuing]. The fact that there is no 
definition would mean that they would not be viewed as violent 
crimes. For an individual who defrauded elderly people, there 
is no definition by which that would be determined to be 
violence, a violent criminal. Corrupt public officials are not 
determined to be violent by any definition I have ever seen in 
the Federal code, and, in fact, I do not know of any definition 
in the Federal code that would list spies, members of terrorist 
organizations, or even individuals in organized crimes who have 
done racketeering. If the gentlelady----
    Ms. Jackson Lee. If I can----
    Mr. Forbes. Yes, go ahead.
    Ms. Jackson Lee. If I can reclaim my time, it might be, Mr. 
Forbes, that we have a philosophical disagreement because I 
happen to believe in rehabilitation, and I do believe that 
there are instances where you will find that a large percentage 
of older, nonviolent----
    Mr. Scott. The gentlelady's time has expired.
    Ms. Jackson Lee [continuing]. Inmates, Mr. Chairman, have 
been rehabilitated and could be considered a viable, if you 
will, candidate for this release. Again, this bill is subject 
to amendment, and we welcome working with Mr. Forbes on this 
bill.
    And with that, I yield back.
    Mr. Scott. Details of the bill will be debated later, but 
we have a distinguished panel of witnesses before us.
    Our first witness is Professor Jennifer L. Woolard, 
assistant professor of psychology at Georgetown University. She 
has written about adolescent development in the family and 
legal context, including juvenile delinquency, mental health, 
and violence. Her research with juvenile defendants addresses 
police interrogation, culpability, the attorney-client 
relationship, and the role of parents in adolescents' legal 
decision making. She has a BA in sociology and psychology and 
an MA in community development psychology and a Ph.D. in 
community and development psychology from the University of 
Virginia in Charlottesville.
    Our next witness is Debra LaBelle. She is a human rights 
attorney from Ann Arbor, Michigan. In addition to her private 
practice, she is the project director of the ACLU's Juvenile 
Life Without Parole Initiative and author of ``Second Chances: 
Juveniles Serving Life Without Parole in Michigan's Prisons.'' 
She has an MA in philosophy from Barnard College and a juris 
doctorate from Wayne State University Law School.
    Our next witness is Jonathan Turley of George Washington 
University Law School. He teaches courses on constitutional 
law, constitutional criminal law, environmental law, litigation 
and torts. He is the founder and executive director of the 
Project for Older Prisoners, or POPS. He has a BA in 
international relations from the University of Chicago and a 
juris doctorate from Northwestern School of Law.
    Our next witness will be Mr. Fred Mosely, president and 
founder of Justice Affiliates in Cleveland. He is a former 
trial attorney and judge who operates the Justice Project which 
provides assistance to those recently released from 
incarceration and counseling to their family members, and he 
operates Justice Ministries which conducts teaching seminars 
and publications on spiritual law. He has a BA from Wilberforce 
University, his juris doctorate from Cleveland Marshall College 
of Law, and a master of law also from Cleveland Marshall.
    The next witness is Ray Krone whose experience that brings 
him here today is one that we hope one day to eliminate. He 
lost 10 years of his life sitting on Arizona's death row 
accused of a murder he did not commit. He is the 100th person 
whose innocence has been proven by DNA evidence.
    Our next witness is Drew Wrigley, U.S. attorney for the 
District of North Dakota, and I just want to point out that the 
gentleman from North Dakota, Mr. Pomeroy, wanted to be here, 
but could not be here to introduce you. He has over 10 years' 
experience as a prosecutor in State and Federal prisons. He has 
a BA in economics from the University of North Dakota and a 
juris doctorate from American University School of Law in 
Washington, DC.
    Our final witness is Mr. Lance Patrick Ogiste of the Office 
of the District Attorney of Kings County in New York. He 
oversees the appeals bureau, community relations bureau, and 
the ComALERT program. He has a BA in political science from 
Columbia College of Columbia University and a juris doctorate 
from Georgetown University Law Center in Washington, DC.
    We will begin with Ms. Woolard.
    There is a timing device in front of you that tells you 
when your time is about to expire. The light will go from green 
to yellow, and, hopefully, you will start finishing up when the 
light turns to red.
    Ms. Woolard?

 TESTIMONY OF JENNIFER L. WOOLARD, Ph.D., ASSISTANT PROFESSOR, 
DEPARTMENT OF PSYCHOLOGY, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Ms. Woolard. Thank you, Mr. Chairman. I will do my best to 
pay attention to it turning to red.
    Mr. Chairman, Ranking Member Forbes, and Members of the 
Subcommittee, thank you for the opportunity to speak with you 
about inmate rehabilitation and successful release planning. 
Today, I want to briefly share with you some of what behavioral 
science research, particularly psychology, can contribute to 
your policy deliberations about responses to youth, 
particularly the discussion of juvenile life without parole and 
rehabilitation.
    I want to make two perhaps obvious statements, but then 
tell you why they might not be so obvious. First, adolescents 
are developmentally different from adults in ways that are 
relevant to delinquency and crime and rehabilitation. This 
statement is not based in stereotype or intuition, but in 
science.
    Although the belief that adolescents are different may not 
be longstanding, the news is that advances in behavioral and 
brain research support this fundamental tenet of developmental 
psychology and of the rehabilitative approach in the justice 
system. This research has important implications for juveniles' 
culpability for the offenses that they commit as well as for 
their prospects for rehabilitation.
    To illustrate, I am going to briefly focus on two major 
aspects of adolescents' brain and behavior functioning.
    The socio-emotional network refers to brain systems 
responsible for emotion, rewards, and social processing, 
perhaps the same systems that underlie our emotional 
discussions of crime policy. These tend to undergo major 
changes in adolescence, also a time of increased sensation-
seeking, increased emotional arousal, and increased 
attentiveness to social information. So adolescence is 
characterized by a socio-emotional system that is easily 
aroused and highly sensitive to social feedback from others.
    At the same time, adolescence is characterized by a still-
immature cognitive control system. Although intellectual 
ability peaks by about age 16, the capacity for planning and 
future orientation and the ability to regulate oneself involve 
sections of the brain known as the prefrontal and anterior 
cingulate portions that continue to develop well into young 
adulthood.
    Sometimes called the CEO of the brain, these areas activate 
during what we might consider mature or deliberate thinking--
the abilities to identify and consider future consequences of 
our acts, to understand possible sequences of events, and 
control impulses. So, as a result, adolescents are less able to 
control impulses, less able to resist peer pressure, less 
likely to think ahead, and more driven by the thrill of 
rewards. Moreover, the effects of immaturity are probably even 
greater outside the control of the laboratory.
    So, compared to adults, juveniles' cognitive capacity is 
undermined by that socio-emotional system in circumstances that 
are not controlled or deliberate or calm, circumstances that 
might encompass much of juvenile crime. Our theory suggests 
that with maturation comes the integration of these two 
systems, bringing their influence into greater balance, perhaps 
contributing to the reduced risk in crime and delinquency that 
we see in adulthood and, also, underscoring the potential for 
change during those years as well.
    So let me be clear. Advances in brain imaging are exciting, 
offering a window into the structure and function of the brain. 
It is still at early stages, though. I cannot tell you that 
certain regions of the brain are responsible for crime, or I 
cannot scan one person and tell you that that person is fully 
developed or not fully developed.
    But we can tell you that this initial brain research is 
consistent with the decades of behavioral research documenting 
important differences in the cognitive capacities, psychosocial 
development, and behavior of adolescents compared to adults.
    Now there are certainly adults who engage in risky behavior 
or act immaturely and commit crime. The crucial distinction I 
want to make for you based on science, though, is that 
adolescents as a class are more likely to demonstrate these 
deficiencies due to normative development that is incomplete, 
not necessarily a completely formed personality. Most of those 
adolescents will mature into law-abiding, productive adult 
citizens.
    So, as a result, our research challenges us and challenges 
you how to sort and manage a population that can appear 
simultaneously adult-like and immature.
    The importance of considering rehabilitation and 
amenability to treatment as we consider youth in long-term 
incarceration is a critical issue. Youths' foreshortened time 
perspective, for example, can mean that time in isolation or a 
life-without-parole sentence can have a more severe or 
excessive impact upon youth.
    It is incumbent upon us as researchers and policymakers to 
ask questions about outcomes that extend beyond recidivism to 
include pathways of development and positive engagement in the 
larger society, the prospect for employment and positive 
contributions. The emphasis on and the possibility for 
rehabilitation is crucial.
    Our research findings, at a minimum, support the importance 
of considering these factors as we reduce offending and augment 
the opportunity for youth to follow a successful and productive 
developmental pathway.
    Thank you.
    [The prepared statement of Ms. Woolard follows:]

               Prepared Statement of Jennifer L. Woolard

    Mr. Chairman and members of the Subcommittee on Crime, Terrorism, 
and Homeland Security, thank you for the opportunity to speak with you 
this afternoon about inmate rehabilitation and successful release 
planning. Today I share with you some of what behavioral science 
research can contribute to the policy discussion about responses to 
youth.
    First, adolescents are developmentally different from adults in 
ways relevant to delinquency and crime. This statement is not based in 
stereotype or intuition but in science. Although the belief that 
adolescents are different may not be different longstanding, the news 
is that advances in behavioral and brain research support this 
fundamental tenet of the juvenile justice system and its approach to 
rehabilitation. To illustrate, I will focus on two major aspects of 
adolescents' brain and behavior functioning.
    The socio-emotional network refers to brain systems responsible for 
emotion, rewards, and social processing, which undergo major changes in 
early adolescence, also a time of increased sensation-seeking, 
increased/easier emotional arousal, and increased attentiveness to 
social information. So, adolescence is characterized by a socio-
emotional system that is easily aroused and highly sensitive to social 
feedback.
    At the same time, adolescence is characterized by a still-immature 
cognitive control system. Although intellectual ability peaks by about 
age 16, the capacity for planning, future orientation, and the ability 
to regulate oneself involve prefrontal and anterior cingulate portions 
of the brain that continue to develop well into young adulthood. 
Sometimes called the ``CEO'' of the brain, these areas activate during 
what we might consider mature or deliberate thinking--the abilities to 
identify and consider future consequences, understand possible 
sequences of events, and control impulses.
    As a result, adolescents are less able to control impulses, less 
able to resist pressure from peers, less likely to think ahead, and 
more driven by the thrill of rewards. Moreover, the effects of 
immaturity are probably even greater outside the control of a 
laboratory. Compared to adults, juveniles' cognitive capacity is 
undermined by that socioemotional system in circumstances that are not 
controlled, deliberate, and calm--circumstances that may encompass much 
of adolescent delinquency risk. Theory suggests that with maturation 
comes the integration of the two systems, bringing their influence into 
greater balance and perhaps contributing to the reduction in risky 
behavior we see in adulthood.
    Let me be clear--the advances in brain imaging techniques are 
exciting and offer windows into the structure and function of the 
brain. However, research is still at the early stages. We cannot 
definitively tell you that certain regions are ``responsible'' for 
risky behavior, immature thinking, or delinquent acts. We can tell you 
that our initial brain research is consistent with the decades of 
behavioral research documenting important differences in the cognitive 
capacities, psychosocial development, and behavior of adolescents 
compared to adults.
    Now, there are certainly adults who engage in risky behavior or act 
immaturely. The crucial distinction, though, is that adolescents as a 
class are more likely to demonstrate these deficiencies due to 
normative development that is incomplete; most will mature into law-
abiding, productive adult citizens. As a result, the research on 
developmental differences challenges policymakers and practitioners to 
sort and manage a young population that can appear simultaneously 
adult-like and immature. So, what guidance can developmental research 
provide?
    I believe the body of behavioral and brain research calls into 
question assumptions made by some that juveniles are simply ``miniature 
adults'' incapable of, or unlikely to change, simply because they are 
capable of committing certain offenses. Prior to age 16, they are 
different intellectually and emotionally. After age 16, they are still 
different emotionally.
    The importance of considering rehabilitation and amenability to 
treatment as we consider youth in long-term incarceration is a critical 
issue, particularly for youth incarcerated as adults. Youths' 
foreshortened time perspective, for example, can mean that the same 
amount of time in isolation imposed for disciplinary sanctions for 
adults can have a more severe or excessive impact on youth. One study 
comparing the perceptions of youth transferred to the adult system with 
those retained in the juvenile system found youths reported that 
juvenile sanctions had an effect because they gained something (e.g., 
skills, hope, services); adult sanctions tended to have an effect on 
attitudes and behavior because they cost something (e.g., loss of hope, 
safety, respect). Sanctions imposed on juvenile offenders should hold 
them responsible, but should not harm them in ways that imperil their 
development.
    It is incumbent upon researchers and policymakers to ask questions 
about outcomes that extend beyond recidivism to include pathways of 
development (e.g., appropriate relationship formation, individual 
capacities) and positive engagement in the larger society (e.g., 
employment, contributions to society). The emphasis on, and possibility 
for, rehabilitation is crucial. These research findings, at a minimum, 
support the importance of a developmentally appropriate juvenile 
justice system that simultaneously works to prevent and reduce 
offending while augmenting the opportunity for youth to follow a 
successful and productive developmental pathway.

    Mr. Scott. Thank you.
    Ms. LaBelle?

  TESTIMONY OF DEBORAH LaBELLE, J.D. DIRECTOR, JUVENILE LIFE 
            WITHOUT PAROLE INITIATIVE, ANN ARBOR, MI

    Ms. LaBelle. Thank you, Mr. Chairman and Members of the 
Subcommittee. I, too, would like to address the bill that I 
think brings some equity back to juveniles who are sentenced to 
life without any possibility of parole.
    As Mr. Chairman mentioned, there are over 2,000 juveniles 
serving this sentence in this country, and there are nine now 
in the rest of the world, Australia having recently released 
their three children that were serving that sentence and 
altered the way that they have begun to treat and consider 
children.
    I think it would also add equity because in many of the 38 
States that have this punishment, it is the harshest punishment 
that can be given for anyone who does any crime so that if an 
adult at 45 years commits multiple murders, they will get the 
same punishment as a 14-year-old child who, in one of my States 
that I work in, commits a felony murder.
    And it is not only the same punishment. In fact, it is a 
harsher punishment for the child because if you look at the 
sentence that we are talking about, by virtue of its very 
sentence, a juvenile who is 14 or 15 who receives a life-
without-possibility-of-parole sentence will serve many more 
years in that prison cell than an adult, a mature adult, who 
receives that sentence. So not only are you not having a 
consideration of the youthful status, but you are actually 
punishing a child harder for what may be the same crime.
    And as Justice Kennedy recently recognized in striking down 
the juvenile death penalty, he said that as any parent knows 
and as the science and sociological studies confirm, that this 
lack of maturity and underdeveloped sense of responsibility, 
peer pressures, are qualities that result in impetuous and ill-
considered actions and decisions much more often in youth than 
they do in adults.
    Youth is a time and condition of life when a person is 
susceptible to influence and psychological damage, and that 
explains in part why the prevailing circumstances that 
juveniles have less control, less experience and less control 
over their own environment, which often adds to impetuous 
crimes.
    But we now have a system in which these youth, these 
children ranging from the age of 13 to 17, are placed in a cell 
without ever a second look until they die and without any 
consideration of their youthful status. And I think that one of 
the things that no one can say with assurance is what a child 
will be when they grow into adulthood. Yet in the United 
States, we stand virtually alone in rejecting the youth's 
unique potential to grow, to change, to learn and to contribute 
to our society and our future. And we do that uniquely in the 
criminal justice system because in all of our civil and 
political laws, we recognize that children are less 
responsible. We recognize that they do not have the wherewithal 
to vote until they are 18, that they can only drive when they 
are 16, that they cannot do contracts, that they cannot serve 
on the very juries that we allow to convict them and send them 
to prison for life without any second look at them.
    And so when we talk about equity and we talk about 
instilling a kind of discretion in our criminal justice system, 
what we have with regard to youth is a total disregard, just 
with a game of semantics, that we will treat youth as if they 
were adults. And neither judges nor jury in the majority of 
these States have any discretion to do otherwise, because for a 
whole range of crimes for many States, once you are the age of 
14 and you commit a crime, which may be a felony murder, 
meaning that you have an adult who does the actual homicide, 
you are mandatorily automatically sent to an adult court. And 
once you are convicted, it is a mandatory sentence. Neither a 
judge nor a jury has the ability to look at that child's status 
and make any determination.
    And what this bill simply does is it says we will look 
again. We will acknowledge that you are a child, and when you 
grow up, you may be an adult that may or may not be able to 
join society, and we will not arbitrarily say that we will 
sentence you from cradle to the grave at a cost of 
approximately $2 million per child without at least considering 
the concept of whether punishment has been served, whether you 
are a risk to public safety, and whether you can now as an 
adult rejoin our society.
    So I think that when you are looking at this bill, this 
really puts back in place some of the equities that are missing 
in the kind of reactive sentences that have occurred over the 
last 10 years with regard to our children, and I think that 
this matter is an issue not as much as criminal justice, but a 
consideration of how we are going to treat our children and how 
we are going to look at them in terms of whether they can be 
part of our future.
    Thank you.
    [The prepared statement of Ms. LaBelle follows:]

                 Prepared Statement of Deborah LaBelle

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Professor Turley?

 TESTIMONY OF JONATHAN TURLEY, THE J.B. AND MAURICE C. SHAPIRO 
PROFESSOR OF PUBLIC INTEREST LAW, GEORGE WASHINGTON UNIVERSITY 
                   LAW SCHOOL, WASHINGTON, DC

    Mr. Turley. Good afternoon. Chairman Scott, Ranking Member 
Forbes, Chairman Conyers, it is a great honor to appear before 
you today to talk about an important issue, which is in H.R. 
261. I come to this question as someone who teaches in the 
field and also practices in the criminal law field and also as 
the founder and the executive director of the Project for Older 
Prisoners, or POPS, although listening now, I think I also can 
claim to be the father of four children under 9. So I have seen 
the ravages of recidivism and overcrowding in my own house as 
well as juvenile recidivism. But I am going to focus instead on 
older prisoners.
    The fact is--and it is a fact that we cannot avoid--our 
prisons are graying. They are graying with our society. Our 
prisons are a microcosm of our society, and our society is 
getting older, our prisons are getting older, and that is 
presenting serious problems across the board in all 50 States 
and the Federal system.
    As prisoners grow older, they become more expensive. They 
are on average two to three times the expense of a younger 
prisoner. They are in a system that has a very difficult time 
in handling them. We are in a serious overcrowding situation in 
this country. We have had a massive growth within our prison 
system. If you look simply at the Federal prison system, we 
have gone from in 1986 33,000 inmates. We are now at 193,000. 
Within that system, we have seen the fastest-growing segment as 
older and geriatric inmates.
    Now many of our prisons are under overcrowded conditions, 
that is past their design capacity for those facilities, and it 
is getting worse. It is getting worse because we have 
ballooning hidden costs associated with the fact that these 
prisoners are becoming more expensive. They are becoming more 
expensive partially because of health problems.
    As you get older, you become more expensive, and if you are 
in the prison system, you get older faster. In fact, when we 
talk about a chronological age in terms of prisoners, that can 
be misleading. The number of physiologically older and 
geriatric prisoners is much, much higher. All the studies show 
that prisoners age about seven to 10 years beyond their 
chronological age, so the number of physiologically older 
prisoners is much, much higher, which is why we have these 
hidden ballooning costs.
    This is due often to masking. It is a medical term of when 
you get older, some conditions are masked by confusion with the 
normal appearance of aging, and so those conditions are often 
missed and they go into acute or chronic states.
    So we have a system that is not working. It is not working 
because we are ignoring the fact that we have a much more 
different prison population today than we have had before, and 
the population of the 21st century demands that we adjust with 
it.
    That does not mean releasing people because they are older. 
In fact, the Project for Older Prisoners has received, I am 
happy to say, as much conservative as liberal support. We have 
had some of the most conservative Members of Congress, some 
prior Administrations that have supported us, because we are 
extremely conservative in who we recommend for release. That 
decision is based upon recidivism.
    Now recidivism involves a lot of different factors, but the 
most reliable factor remains age. Everyone agrees on that. What 
we do not agree on is why. Some of us believe that it is the 
natural evolution of the body and its system. Some believe it 
is cultural. But we all agree that after age 30 certainly--and 
that is a conservative figure--recidivism drops dramatically. 
At POPS, we focus on prisoners who are 55 years or older, but 
that drop most certainly occurs after 40, as I mentioned in my 
testimony, where you see after 40, someone is a third of the 
likelihood of recidivism than someone who is younger than that.
    H.R. 261 is a very important step, and it offers a 
framework for us to try to deal with this problem. As I mention 
in my testimony, I think that it should be tweaked, that it 
should be amended. We need to make sure that people simply do 
not get out because they reach a certain age. My understanding 
from its sponsor, Congresswoman Jackson Lee, is that she 
welcomes those changes and we have, in fact, talked about them.
    Some of the changes may include tweaking the age to 
increase it slightly. More importantly, I think we need to deal 
with habitual offenders that involve nonviolent offenses. 
Occasionally, you will find people who are avertable or 
habitual offenders that graduate up, and we can recognize those 
patterns. We can also exclude certain crimes. As Congressman 
Forbes has pointed out--and I think he is absolutely correct--
there are some crimes that are nonviolent that we simply would 
not want to be subject to this release program. But I also 
agree with Congresswoman Jackson Lee that we do not want to cut 
this too closely to the bone.
    But we can rely on recidivism studies. There are recidivism 
categories that indicate that certain crimes are hard to 
predict. Child molesters, child pornographers tend to have a 
higher recidivism rate, and we can exclude those based on 
science, not emotion.
    I will end my comments today by simply saying that I think 
we can work together. POPS has worked with both parties across 
the country, and I think if you look at our record, you will 
find that we have been able to reach consensus, and I do 
believe that this is about victims, but I think that we need, 
if we really care about victims, to make fewer of them, and the 
way we do that is to make mature decisions about who we need to 
incarcerate and how, and I look forward to working with this 
Committee to achieve that goal.
    [The prepared statement of Mr. Turley follows:]

                 Prepared Statement of Jonathan Turley

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Mr. Mosely?

  TESTIMONY OF FRED MOSELY, JUSTICE AFFILIATES, CLEVELAND, OH

    Mr. Mosely. Mr. Chairman, Ranking Member Forbes, Members of 
this Subcommittee, I consider it an honor to be able to appear 
before this Subcommittee in support of H.R. 4752.
    I bring what I consider to be a unique experience to the 
work that I do in prison advocacy, having served as a trial 
attorney for the United States Justice Department, as an 
assistant Cuyahoga County prosecutor, as a defense attorney and 
as a municipal court judge. During my years in the legal 
profession, I did not realize the fine line that there is 
between the prosecutor's side of the trial table and the 
defendant's chair, nor did I realize that there is not much 
distance between the defense attorney's chair and the 
defendant's chair. And likewise I certainly was unaware of the 
fact that the judge, who may be presiding over the proceedings, 
is not immune from perhaps one day being seated on the 
defendant's chair.
    I have come to realize that you can be on the top one day 
and on the bottom on another day. One can be in a position of 
authority at one time and at a later time at the lowest level 
of society. I have also learned that it is wise to show 
compassion because we find in the Word ``blessed are the 
merciful, for they shall obtain mercy.''
    My unique experience also includes the fact that I was 
indicted by a Federal grand jury and a grand jury seated in the 
State of Ohio for receiving kickbacks from contractors. I had a 
potential incarceration period of 132 years. I was convicted in 
1985, sentenced to 10 years in Federal prison and 12 years 
concurrent in the State of Ohio. Also, I have the unique 
experience of not only having been a Federal inmate, a State 
inmate, but also a Federal and a State parolee.
    As a result of what I came to learn concerning the 
advantage of good time credit, I was able to return to my 
family much sooner than I would have been, and I had some very 
pressing issues at home. My youngest daughter who had been 
attacked by sudden infant death syndrome was operating at a 
much lower mental level than she should have been, my middle 
daughter who was a teenager was running away form home 
constantly because her dad was not home, and my oldest daughter 
was dealing with the stigma and embarrassment of a father being 
incarcerated.
    So, as a result of good time credit, I was able to return 
home and address some of those pressing issues.
    I met men at Big Spring from all walks of life. Some were 
judges, lawyers, medical doctors. You name a profession, it was 
represented in the prison camp at Big Spring, Texas. And many 
of these men were well educated and had various skills. But 
then again, there were many men from the urban areas of Dallas 
and Houston, Oklahoma City, and the District of Columbia, who 
did not have skills and who did not have an educational 
background.
    So these men also took advantage of good time credit, and 
many of them as a result of that were able to return home 
sooner. Some were able to get their GEDs. Some took college 
courses. Others were accomplished on their jobs. Men who had 
never had any meaningful employment previously had regular jobs 
that they were able to go to and develop a sense of pride while 
away.
    I can recall various instances, one in particular. A 
pharmacist, who came from Shelbyville, Tennessee, had two young 
boys. He was a divorcee, and he worked hard in a cable factory, 
and as a result of that, he was able to get home much sooner to 
address the concerns and the issues of those young sons that he 
had at home.
    Also, there was a young drug dealer from Lubbock, Texas, 
who did not have a high school diploma. He was able to get his 
GED, returned to Lubbock, Texas, and now he is a respected 
pastor at a church there in Lubbock. There was a farmer there 
who likewise took advantage of good time credit. He was in his 
60's when he arrived, returned to his farming career and home 
to his family.
    So I strongly support good time credit for the inmate 
community. I am invited to speak at various institutions, State 
and Federal, around the country. I encourage the men and women 
to whom I speak to take full advantage of any and all good time 
credit opportunities that are there, reminding them that 
preparation for release begins the day that you enter the 
institution as opposed to the day that you are released.
    So, in closing, again, I strongly support H.R. 4752, and I 
add to that that it should be extended to all Federal inmates, 
including those from Washington, DC.
    Thank you.
    [The prepared statement of Mr. Mosely follows:]

                  Prepared Statement of Fred M. Mosely

    Mr. Chairman and Members, I am grateful for this opportunity to 
appear in support of HR-4752 (Literary, Education, and Rehabilitation 
Act). My name is Fred M Mosely and I am Founder and President of 
Justice Affiliates. Through our Justice Project, we provide assistance 
to men and women recently released from incarceration and we also 
provide counseling to their family members. Another component of 
Justice Affiliates is Justice Ministries, wherein as an ordained 
minister, I share a series entitled ``The Laws of Life'', with the 
inmate community.
    I bring a unique experience to the work that I do, having served as 
a trial attorney for the United States Justice Department, as a Special 
Ohio Assistant Attorney General, Assistant Cuyahoga County Prosecutor, 
defense attorney in private practice, and as a municipal court judge.
    I did not realize the fine line between various positions in the 
courtroom. I have however, learned that there is a very fine line 
between the prosecutor's side of the trial table and the defense side. 
The distance between the defense attorney's chair and the chair of the 
defendant is nearer than one would imagine. Surprisingly, the presiding 
judge is not immune from finding him or her seated on the defendant's 
chair.
    Early in my career, I was not cognizant of the fact that an 
individual can be on top one day and on the bottom on another. Further, 
I did not realize that one can be in a position of authority in the 
legal community for a season and at the lowest level at a later time. 
Therefore, I have learned that it is wise to have compassion for the 
least of them because ``Blessed are the merciful, for they shall obtain 
mercy''.
    My unique experience includes the fact that in 1984 I was indicted 
for the same offence by a Federal and State of Ohio Grand Jury for 
receiving kickbacks from contractors. I had a potential incarceration 
period of one hundred and thirty-two (132) years. I was convicted in 
1985 and sentenced to ten (10) years in the federal system, and twelve 
years (12) concurrent in the State of Ohio.
    In addition to the fact that I have sat on almost every strategic 
seat in the courtroom, I also have had the experience of being a 
federal and state inmate, and parolee. As a result of these 
experiences, I truly appreciate the benefit of good time credit, and as 
a result of which I was able to return to my home in seven and one half 
(7\1/2\) years. To have been released earlier than I would have been, 
enabled me to address several pressing issues concerning my children: 
one (1), my youngest daughter who was in her teens was functioning on a 
much lower mental level because of SIDS, two (2), my middle daughter, 
because of the hurt and disappointment of my incarceration, was 
frequently running away form home, and three (3), my oldest daughter 
who was having to deal with the embarrassment of negative pretrial and 
post trial press concerning her father.
    I am familiar with the re-entry process, having been away for a 
significant number of years: forty months (40), in the federal system 
and four (4) years in three (3) different Ohio institutions. I also 
understand the process of re-entering society after a long prison term. 
Similarly, I am mindful of dealing with scornful looks from former 
colleagues and I know what it is like to seek employment having the 
barriers of being a middle aged minority with a criminal record.
    My understanding of HR-4752 introduced by Representative Bobby 
Scott (D-Virginia 3rd) is that this bill would amend Title 18, United 
States Code , to award credit toward the service of a sentence to 
prisoners who participate in designated educational, vocational, 
treatment, assigned work, or other developmental programs. I support 
such efforts because of my personal experience and because of certain 
facts in numerated in the document of support of HR-4752 summarized 
below:

        <bullet>  Increased recidivism results in profound collateral 
        consequences, including public health risk, homelessness, 
        unemployment and disenfranchisement.

        <bullet>  Impact on children, the weakened ties among family 
        members, and destabilized communities.

        <bullet>  That more than fifty percent (50%) of former inmates 
        are unemployed.

        <bullet>  A large percentage of inmates function at the two (2) 
        lowest literacy levels.

        <bullet>  A substantial number of local jail inmates have never 
        completed high school or its equivalent.

        <bullet>  That participation in correctional educational 
        programs lowers the likelihood of re-incarceration.

        <bullet>  Lengthy periods of incarceration should be reserved 
        for offenders who pose the greatest danger to the community, 
        and to those who commit the most serous offences.

        <bullet>  That the elimination of incentives such as parole, 
        good time credit and funding for college courses means that 
        fewer inmates participate in and excel in literacy, education, 
        treatment, and other development programs.

    I met men from all walks of life at FPC Big Spring, Texas. Some of 
these men were well educated and trained (i.e. judges, lawyers, federal 
and state legislators, medical doctors, educators, businessmen, pilots, 
ministers, etc.). Most of the inmates, however, at FPC Big Spring, 
Texas were men from urban areas such as Dallas, Houston, Oklahoma City, 
and from the District of Columbia who had no marketable skills and 
limited education. Many of these men took advantage of educational, 
vocational, treatment, assigned work and other developmental programs, 
and were able to earn additional good time credit.
    My memories of FBP Big Spring include seeing the pride on the faces 
of men pursuing their GED's or college courses as they walked to class 
with school books in hand. I recall the look of accomplishment on some 
who had never had a meaningful job or a regular place of work to go to 
on a daily basis. These men were able to earn good time credit. I also 
reflect on the interest displayed by some of the men enrolled in 
various programs and the successful completion of same which also 
provided good time credit.
    I vividly recall a pharmacist, from Shelbyville, TN who was serving 
a six and one half (6\1/2\) year sentence. He was a divorced father 
with two (2) young boys and was driven to do all in his power to return 
home as soon as possible to be a responsible parent and a guiding force 
in the lives of his two sons. Being aware of the good time credit he 
could earn based on work assignment, the pharmacist applied for work in 
the cable factory. He worked extremely hard and was able to send money 
home to help support his children. Also, because of his painstaking 
work ethic he earned sufficient good time credit to effectuate his 
release months sooner than scheduled. He has been restored to his 
career in pharmacy, and is remarried and active in ministry.
    Another individual at FPC Big Spring who availed himself to the 
benefits of good time credit was a young drug dealer from Lubbock, TX. 
This diligent individual worked long hours on his prison job, earned 
his GED and accumulated sufficient good time credit to allow him to 
return home sooner than his scheduled release date. He is now a well 
know and respected pastor in Lubbock, TX.
    There was a farmer from Guyman, Okalahoma who offered his skills as 
a heavy equipment operator. He was involved in most of the construction 
work on the compound. This individual was in his sixties (60's) upon 
his arrival of FPC Big Spring and longed to return to his wife of many 
years and his family in Oklahoma. The good time credit earned by him 
allowed him to do just that, and he returned to a successful farming 
career.
    Since my release I have been invited to speak to the inmate 
community in various institutions (state and federal) I have endeavored 
to give a message of hope and restoration. I encourage those to whom I 
speak to take advantage of every conceivable opportunity to better 
themselves, spiritually, mentally, and physically. They are also 
strongly encouraged to take advantage of every opportunity to earn 
additional good time credit. They are reminded of the fact that their 
preparation for return to society began the day they entered the 
institution, and not on the day of release. I encourage them not only 
to endeavor to better themselves, but also to be an integral part of 
the lives of their family members.
    On many occasions, as I walk through downtown Cleveland, I see men 
with whom I was incarcerated, in desperation of meaningful employment. 
The combination of race, age, criminal record, limited education and 
skills, all but preclude them from significant employment. I receive 
letters from around the country from men and women in need of re-entry 
assistance.
    I strongly support HR-4752. It is my opinion that good time credit 
should be based upon term of imprisonment imposed as apposed to time 
served. Further, good time credit should be extended to all federal 
inmates including those from the District of Columbia. I applaud 
Congressman Scott and the Members of this Sub Committee.

    Mr. Scott. Thank you.
    Mr. Krone?

 TESTIMONY OF RAY KRONE, EXONERATED FROM DEATH ROW IN ARIZONA 
   AFTER HIS INNOCENCE WAS CONCLUSIVELY ESTABLISHED, YORK, PA

    Mr. Krone. Thank you.
    I consider it a great honor, too, to be here to address 
this meeting and also a great privilege.
    I do not hold any degrees, I do not hold any political 
offices, but I do think I represent a lot of people in this 
country. I was born in the 1950's, I am a baby-boomer from a 
small town in Pennsylvania, high school graduate, Vietnam-era 
vet, 6 years in the U.S. Air Force, ex-U.S. Postal employee, 7 
years for the Post Office, and also a convicted murderer, 
thankfully, an exoneree, too, and that is what I am here to 
address. And I am going to address the issue on bill H.R. 4063, 
restitution for the wrongfully convicted.
    It is hard for me to believe this could happen, would 
happen to me. I have never been in trouble in my life, 
graduated in the top 15 percent of my class. I did not even 
have detention in high school. I served my country for 6 years, 
got out, worked for the Post Office.
    One day, I was questioned about a murder. Two days later, I 
was arrested based on the assumption that marks on the body 
matched my teeth. I went to trial in just 7 months, had a 
court-appointed attorney who was given $5,000 to defend me. At 
the time when I checked in, to get representation, it was over 
$100,000. My little pragmatic country mind thought about it, 
said, ``Well, now I am making $30,000 a year at the Post 
Office. I bought a house 7 years ago that cost me $50,000. I am 
supposed to come up with over $100,000 to defend myself for 
something I did not do, and I am not going to get that money 
back?''
    And so I trusted the system with that court-appointed 
attorney. The trial lasted 3\1/2\ days, found guilty of murder, 
found guilty of kidnapping, based on the bite mark testimony by 
an expert. I was sent to death row because I did not show 
remorse, I did not show regret, I did not plead for my life for 
something I did not do. My family stood by me all those years, 
friends and people that knew me at the age of 35 when I was 
arrested. I knew a lot of people, and a lot of people knew and 
believed in me.
    And I fought that system for 10 years, having a new trial 
at one point because the prosecution withheld evidence, again 
getting convicted, and this time the judge saying that there 
was lingering residual doubt. So he only sends me to 25 to life 
this time.
    After 10 years in prison, DNA finally was recovered from 
the victim's clothing. That DNA was put in a nationwide DNA 
databank that came back and identified a known sexual predator 
who had a history of assaulting women and children. His DNA 
matched the DNA found at the crime scene, and I was finally 
released after 10 years, 3 months, and 8 days. The judge told 
me good luck. The prosecutor would not even admit that he made 
a mistake.
    I got out, come home to my family in Pennsylvania, start my 
life over again at the age of 45, having lost my retirement at 
the Post Office, my career in the Post Office, having lost my 
home, all my personal property, just thankful--thankful--that 
somebody believed in me, and that I was finally able to walk 
free and hold my head up because they got the guy that did it.
    I am here to represent a lot of people that are also still 
in prison fighting for their day of freedom, their chance to 
prove their innocence. There was 123 other death row exonerees 
in our country that walked out of prison a free man, being 
exonerated, wishing they had some help. My family stood by me. 
My friends supported me. My small town, my community, supported 
me. I am so thankful for that. I am lucky. I am one of the few 
fortunate. A lot of people do not get out with being able to 
stand on their feet, and society turned their backs on them 
just like the justice system they trusted turned their backs on 
them.
    I am thankful and honored to be able to talk and address 
you today about this bill. It is important knowing that the 
interest of justice--I heard the word ``fairness'' mentioned. I 
heard ``truth'' mentioned. Those two go hand in hand. In order 
to have justice, you have to have the truth, and you have to 
have fairness.
    I know as a kid taking the Pledge of Allegiance before the 
class each day started school, with liberty and justice for 
all, and I believed in that and I stood for that. I found the 
day that it did not seem that it does come for all.
    But bad things do happen to good people. It is the luck of 
the draw when you get involved in the justice system, and that 
scares me because what happened to me could happen to any of 
your sons, your daughters, your brothers, your fathers, your 
uncles, your friends.
    As I said, I do not have a degree, I do not hold any 
offices. I am just an American that believes in my country, 
believes in justice, and wants to be able to believe in my 
government to recognize, respect, and protect that life and 
liberty, that pursuit of liberty and justice for all.
    Thank you.
    [The prepared statement of Mr. Krone follows:]

                    Prepared Statement of Ray Krone

    A wrongful conviction is a nightmare for the innocent person, the 
crime's victim, and for our society. I should know. I spent 10 years in 
an Arizona prison for a crime someone else committed. My incarceration 
included nearly three years on Arizona's death row.
    When Kim Ancona was killed in 1991, a friend of hers mentioned 
someone named Ray to investigators, and the police focused on me as 
their only suspect. In fact, investigators were so focused on me that 
they ignored evidence that exonerated me, including a bloody footprint 
from the scene that did not match my size. In addition, I owned no 
shoes that matched the tread.
    Because I trusted the justice system, I did not bother to hire a 
private attorney and accepted court-appointed counsel. My attorney's 
resources were woefully inadequate. The courts granted him a mere 
$5,000 to represent me. A bitemark was the one piece of evidence that 
led to my conviction, but my lawyer could not afford to hire a bitemark 
expert. He relied on a family dentist as our expert.
    At trial, my roommate testified on my behalf, stating that I was at 
home sleeping when Kim was killed, but the prosecuting attorney 
attacked his credibility. The prosecutor claimed that my roommate would 
lie on my behalf because I had taken him in during a rough period in 
his life.
    I was luckier than most, though. My family and friends came to my 
aid. My mother took out a second mortgage on her house and spent her 
retirement savings to help. High school friends held fundraisers for my 
legal defense. My cousin, Jim Rix, whom I had never met before I went 
to jail, heard my story and also offered his help. In total, my family 
and friends spent hundreds of thousands of dollars to help free me.
    A wrongful conviction is not just about the unlucky person who goes 
to jail. It's also about the victims and the safety of society. We must 
not forget the simple and obvious truth that when we get it wrong, a 
guilty person goes free. 20 days after Kim was killed, Kenneth 
Phillips, the man whose DNA matched the evidence from the crime scene, 
assaulted a young girl, a crime for which he was incarcerated at the 
time of the DNA test that freed me.
    In fact, had investigators broadened their list of suspects, they 
may have found Phillips soon after the death of Kim Ancona. He lived 
just a few hundred yards from the bar where the crime occurred and was 
on probation at the time for assaulting a neighbor.
    I lost ten years of my life in jail, but I choose not to be bitter. 
Rather than focus on the ten years I lost, I've made a conscious 
decision to focus on the next ten years. By talking about my 
experience, I hope to impact significant change toward making our 
criminal justice system truly just.
    In that respect, to have justice, it must be about seeking truth 
and fairness for all. Just as we seek suitable and just punishment for 
a crime committed, so should we seek suitable and just restitution for 
those wrongly convicted. Our pledge of allegiance declares ``with 
liberty and justice for all''. The loss of liberty, liberty that our 
forefathers fought so hard to secure for all Americans, should never be 
taken lightly. It dishonors their efforts and diminishes us all as 
Americans. When our justice system, a system that we should all hold in 
high esteem, fails to protect our liberties, and in fact revokes our 
liberty, our freedom, in error, then fairness, neigh justice requires 
that this esteemed system of justice recompense those who the system 
failed. I ask that you carefully consider this bill and support it in 
the continued pursuit of fairness and thus justice for all.

----------
    Ray Krone of York County was the 100th person since 1976 to be 
exonerated after spending time on death row. He is the director of 
communications and training for Witness to Innocence 
(www.witnesstoinnocence.org).

    Mr. Scott. Thank you.
    Those bells indicate we have a vote coming up. I think we 
can probably get in the testimony of the next two witnesses.
    Mr. Wrigley?
    Mr. Wrigley. I am happy to wait if that is required as 
well.
    Mr. Scott. All right. Proceed.

           TESTIMONY OF DREW WRIGLEY, U.S. ATTORNEY, 
                    DISTRICT OF NORTH DAKOTA

    Mr. Wrigley. Good morning, Chairman Scott and Ranking 
Member Forbes and all of the Members of the Committee--I am 
indeed honored to be here with all of you as well as with this 
esteemed panel.
    And let me just start by saying that, Mr. Krone, I am 
particularly moved to be here with you this morning. I think 
anybody who respects and loves justice, although your story 
will wrench anybody, has to love about the system that it will 
also look to and provide ways for there to be exoneration, I am 
looking forward to talking to you after the hearing today 
because, as I say, anyone who loves justice would be wrenched 
by your story this morning.
    I want to point out that I am prepared to comment, Mr. 
Scott, on a couple of the bills that are before the Committee 
today, H.R. 261, the ``Federal Prison Bureau Nonviolent 
Offender Relief Act of 2007,'' as well as H.R. 4063, the 
``Restitution for the Exonerated Act of 2007.''
    I understand that some additional bills were introduced 
yesterday or today, and while I was not able to prepare comment 
on those proposals on behalf of the Justice Department, I can 
assure you and all the Members of the Committee that I will be 
happy to relay any concerns or questions that are raised here 
today, and if at all possible, I would be glad to answer 
questions as well.
    It has been an honor on my part to represent in my service 
as a prosecutor the interest of victims, crime victims and 
their aggrieved communities dating back to 1993. In that year, 
I began my career as a prosecutor by moving to Philadelphia. I 
took my oath of office as an assistant district attorney. Six 
years ago, on November 15, 2001, I had the privilege of again 
taking a similar oath, this time as the United States attorney 
for my home state of North Dakota.
    I am the 17th United States attorney in my State's history. 
I look at the wall of my predecessors when I walk into the 
office each morning and realize that 100 years from now, there 
are going to be 17 more probably who have come and gone. Some 
will do a better job than me, some maybe worse, but I can 
assure this Committee that none will be more honored than I am 
and have been by the service with the Justice Department, with 
my colleagues in North Dakota and around the country.
    It is an honor to be here today.
    I am going to first discuss, if I may, H.R. 4063 and just 
jump right into it, I guess. While the Department of Justice 
opposes the enactment of H.R. 4063, I want to stress--I want to 
stress--that we support the purpose of that legislation, and 
then, again, the successful transition of wrongfully convicted 
persons back into their communities is not really a 
controversial concept. Toward that end, the Department of 
Justice supports Federal, State, and local programs that work 
to assist in such transitions.
    The Administration's proposal in this regard would 
consolidate the Justice Department's more than 70 existing 
grant programs into four flexible and competitive grant 
programs that would direct taxpayers' dollars to the places and 
to the people where they are most needed.
    It sounds like the Committee is most needed someplace else, 
but I will proceed until instructed otherwise.
    The President's fiscal year 2008 budget proposes $65 
million for a single reintegration and ex-offenders program, 
including exonerees, and the Department of Housing and Urban 
Development and the Department of Labor that would enlist 
faith-based and community organizations in assisting those 
people return to their communities.
    If I might, I will turn now to H.R. 261, the so-called 
``Federal Prison Bureau Nonviolent Offender Public Relief Act 
of 2007.''
    I will be clear from the beginning the department strongly 
opposes the enactment of H.R. 261. The legislation is 
completely contrary to the longstanding truth in sentencing 
policy of the United States government. That policy has been 
promoted consistently by both Democratic and Republican 
administrations, by Democratic and Republican Congresses over 
the least 20 years. H.R. 261 and its arbitrary release-
triggering mechanism would undermine the purposes of the 
sentencing reform that has been in place since 1984, and, 
consequently, the thoughtful consideration of appropriate 
sentencing guidelines by the sentencing commission, which, of 
course, is not just a commission office without name. It is a 
commission comprised of a wide array of criminal justice 
experts.
    H.R. 261's release mandate ignores the specifics of a 
particular defendant. It ignores the specifics of his or her 
crime. It ignores the specifics of his or her criminal history. 
In that way, H.R. 261 runs entirely counter to the factors the 
sentencing court is required to consider in imposing a sentence 
under United States law.
    Federal district court judges are required by law to take 
what we call the 3553 factors into account in the determination 
of an appropriate sentence in every single case. Nonetheless, 
H.R. 261 would turn its back on the judge's determination, 
would arbitrarily release all qualifying 45 year olds who have 
served just 50 percent of what the public was led to believe 
that they would serve.
    That is an important concept. Across my more than a decade 
of prosecuting crimes, I can tell you it is incredibly 
important to victims of crime, to their families, and to the 
communities most affected. It is incredibly important to them 
to know that there is integrity in the sentence that has just 
been passed. After all, criminal sentences are not simply a 
matter of when will the person recidivate, will the person 
recidivate. They are also a matter of punishment, appropriate 
punishment handed out at the time as the sentence is passed.
    This legislation would inequitably and unjustly benefit an 
entire class of offenders whose release would present a clear 
and present danger to the public. It is unclear why these 45-
year-olds would get the benefit of this much more lenient 
treatment simply because they have attained the age of 45, or 
if it was tweaked, if it was tweaked to 46 or 48 or 52, 
arbitrary nonetheless.
    And keep in mind the types of criminals over the age of 45 
or 55, whatever it would be, for whom the release would be 
required--drug dealers, spies, others convicted of violating 
the Nation's espionage laws, lifelong fraudsters, money 
launderers, members of terrorist organizations, gangsters, 
possessors of child pornography.
    Possessors of child pornography--I prosecute these cases 
personally. In a district my size, I try these cases. I can 
tell you that the people that are involved in that industry, 
people who are on the bad end of that industry, the victim, 
would be loath to stand before you and say these are not 
violent crimes, and they would like the people who are 
sentenced under these provisions to be released 
indiscriminately simply because they got to 45.
    The fact is all of these offenses constitute real threats 
to the security of the United States, whether or not the person 
committed what we will call a violent act of some kind. Lengthy 
sentences in such cases are appropriate and they are a true 
deterrent.
    I see that my time is going by here, and I do not wish to 
cut into the Committee's time because I know the questions are 
more important than what perhaps I have to say this morning.
    I am just going to end, Mr. Chairman, by pointing out again 
that this sentencing regimen that we are called upon as Federal 
prosecutors so often to defend has been a sentencing regimen 
that has been passed on by the Congress and has been in the 
policy of the United States for 20 years.
    Now I can say from my perspective and in my district--I 
know people might snicker and say, ``Well, is there crime in 
North Dakota?'' I can assure you that there is. In my years as 
U.S. attorney, we have had a 300 percent increase in a number 
of Federal criminal violations that we are prosecuting, and 
that includes a 500 percent increase in the drug-trafficking 
cases that we are prosecuting, and these are drug-trafficking 
cases that reach all across the United States into many of your 
districts. I have cases reaching all across the United States 
into Canada and into Mexico.
    And so we are impacted by those problems, and we are trying 
to deal with it the best we can, and I think one of the most 
important tools is certainty in length of sentences. I think it 
has a dramatic impact on our communities, it keeps them safer, 
and it helps us live in a time when violent crime is a very, 
very serious problem that we all recognize. I think if we look 
at it statistically, we are in a position that we can feel that 
we are making real progress because the violent crime rates are 
in a position that were probably enviable in the 1960's and 
1970.
    Thank you.
    [The prepared statement of Mr. Wrigley follows:]

            Prepared Statement of the Honorable Drew Wrigley

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    And we just have a few minutes to get to the floor, so we 
will recess. I understand we have three votes. So it will be 
about 20 minutes before we get back.
    The Committee is now in recess.
    [Recess.]
    Mr. Scott. The Committee will come to order.
    Reconvening the hearing, we will now hear from Mr. Ogiste.

   TESTIMONY OF LANCE P. OGISTE, COUNSEL, BROOKLYN DISTRICT 
   ATTORNEY, MEMBER, NATIONAL DISTRICT ATTORNEY'S ASSOCIATION

    Mr. Ogiste. Good afternoon, Chairman Scott and Ranking 
Member Forbes and the rest of the Members of the Subcommittee. 
Thank you very much for having me here today. It is quite an 
honor.
    My name is Lance Ogiste, and I am counsel to the district 
attorney of Kings County, Brooklyn, New York, Charles J. Hynes. 
I have been a prosecutor for 20 years, and among my current 
responsibilities is I am in charge of the district attorney's 
prisoner re-entry program, ComALERT, which stands for Community 
and Law Enforcement Resources Together. I am also a member of 
the National District Attorneys Association.
    The successful rehabilitation and re-entry of ex-offenders 
into the community demands the attention of prosecutors 
throughout the country because, quite simply, the welfare and 
safety of the public are at stake.
    Recidivism by formerly incarcerated individuals takes a 
tremendous toll in terms of both the immediate harm caused by 
the criminal conduct and the direct and indirect costs of 
recidivism, such as the criminal justice system costs of 
investigation and prosecution, the incarceration costs, and the 
myriad social costs, such as medical care, foster care, and 
welfare system costs, resulting from the impact of the crime on 
the victim and the victim's family and friends, and even on the 
offender's family and friends and, of course, on the larger 
community.
    The NDAA recognizes the importance of reducing recidivism 
rates of ex-offenders and supports the development and 
implementation of innovative programs to assist with prisoner 
reentry issues. Because successful re-entry can have such a 
positive impact on an individual and, by extension, a 
community's well-being, DA Hynes in 1999 created ComALERT in 
close collaboration with Counseling Service of EDNY, an out-
patient drug treatment provider; the Doe Fund, a not-for-profit 
organization providing transitional employment and housing; the 
New York State Division of Parole; and numerous community-based 
social services providers. ComALERT is not a re-entry court. It 
is a re-entry partnership for Brooklyn residents who are on 
parole and who have been mandated to engage in substance abuse 
treatment.
    The program assumed its present structure in October 2004. 
There are currently approximately 150 active participants in 
ComALERT. For most clients, the program lasts 3 to 6 months. 
Between October 1, 2004, and October 1, 2007, 446 clients 
graduated from the program. The program graduation rate is 
approximately 53 percent.
    Most ComALERT clients are recently released from prison and 
are referred to the program by parole. ComALERT representatives 
also regularly perform informational sessions via video hookup 
at various prisons throughout New York State explaining the 
program and the services offered. As a result, some clients, 
even if not referred to ComALERT by their parole officers, 
nevertheless choose to enroll in the program once they are 
released.
    At ComALERT's downtown Brooklyn location, clients receive 
outpatient substance abuse treatment from state-licensed drug 
treatment counselors. Each week, clients attend one individual 
counseling session and one or two group sessions. They are also 
regularly tested for drug use. Once drug testing results verify 
that a ComALERT participant has been drug-and alcohol-free for 
at least 30 days, he or she can begin engaging in other 
services and, per the referral of the primary counselor, will 
meet with ComALERT's community resource coordinator, who is an 
employee of the district attorney's office.
    Approximately one-third of ComALERT clients receive a 
referral to and preferential placement in the Doe Fund's Ready 
Willing & Able program, which provides transitional employment, 
transitional housing, job skills training, 12-step programs, 
and courses on financial management and other life skills.
    RWA participants work full time in manual labor jobs, 
primarily street cleaning, and are paid $7.50 per hour. A 
portion of the salary is deposited directly into a savings 
account for the client. They receive meals and other services 
in a Doe Fund facility. After 9 months of transitional 
employment, participants begin the search for a permanent job. 
During this process, they continue to receive a stipend.
    Once RWA participants secure permanent employment and 
housing, they graduate from the program, and the Doe Fund 
continues to provide them with $200 per month for up to 5 
months. ComALERT's weekly individual and group counseling 
sessions and periodic drug testing help clients maintain 
sobriety and their enrollment in RWA, which enforces a zero-
tolerance policy for drugs and alcohol use.
    In addition to providing referrals for RWA and other 
transitional employment, ComALERT's community resources 
coordinator also links participants to a wide range of other 
social services offered by community-based providers, such as 
transitional housing, vocational training, GED test 
preparation, family counseling, and job readiness programs. 
Service referrals are specifically tailored to meet the needs 
of the individual clients.
    Professor Bruce Western, formerly of Princeton University 
and now at Harvard, recently completed research evaluating 
ComALERT. Professor Western has analyzed the recidivism rates 
of ComALERT graduates from July 2004 to December 2006 and found 
that ComALERT attendees have done much better than those who 
did not receive ComALERT.
    I see already that my time is running very low. I will go 
right to our results.
    By contrast, 48 percent of matched parolees were re-
arrested, 35 percent were reconvicted, 7 percent were re-
incarcerated on a new crime. That is in comparison to ComALERT 
graduates who had a 29 percent re-arrest record or a 19 percent 
reconviction percentage or a 3 percent re-incarceration for a 
new crime. So, therefore, you can see that ComALERT has been 
much better than those individuals who have not been able to 
access these kind of services.
    I understand that the Subcommittee is now also looking at 
legislation that would provide Federal funding to agencies 
delivering coordinated social services to individuals who have 
been released from prison after being found factually innocent 
of the crimes for which they were incarcerated.
    Certainly, those who end up behind bars for crimes that 
they did not commit may well have social service needs, such as 
for drug treatment and employment assistance, that are no less 
acute as those of ex-offenders leaving prison. A coordinated 
effort to meet those needs would assist wrongly convicted 
individuals to successfully re-integrate into society after the 
disruptive and traumatic impact of imprisonment and would help 
them become healthy, productive citizens.
    Because we rely on a criminal justice system that can never 
be free of human error, we have a concurrent responsibility to 
assist in the re-integration of those who were unjustly removed 
from society as a result of that system. Moreover, prosecutors 
have an additional public safety interest in seeing that any 
person who is having difficulty re-integrating into the 
community following release from prison receive the support 
services that they need. A sober and employed former inmate who 
has strong connections to family and community is less likely 
to commit a crime than an unemployed drug addict who is 
alienated from society.
    I would caution, however, that the fact that a conviction 
has been vacated or reversed by a court is not tantamount to a 
finding of innocence, and the reversal or vacatur of a 
conviction should not make an individual immediately eligible 
for services. In fact, most of the time that there is a vacatur 
or reversal of a conviction, the prosecuting agency, be it the 
State or the Federal Government, will have the opportunity to 
retry the defendant.
    A defendant who has charges pending against him or her 
obviously stands on very different footing than an individual 
against whom all charges have been dismissed because, for 
example, DNA testing indicates that another person committed 
the crime.
    Finally, I would note that the NDAA supports increases in 
Federal funding to help correctional facilities not only 
develop and implement appropriate individualized re-entry plans 
for prison inmates, but also provide necessary medical and 
mental health care, including substance abuse treatment, 
vocational training, educational programs, and life-skills 
training, as a means of smoothing the transition back to 
productive community living. Such programs will benefit all 
incarcerated individuals.
    [The prepared statement of Mr. Ogiste follows:]

                 Prepared Statement of Lance P. Ogiste

    Good morning. My name is Lance Ogiste and I am counsel to the 
District Attorney of Kings County (Brooklyn), New York, Charles J. 
Hynes. I have been a prosecutor for twenty years and among my current 
responsibilities, is being the executive in charge of the District 
Attorney's prisoner re-entry program, ComALERT--which stands for 
Community and Law Enforcement Resources Together. I am also a member of 
the National District Attorneys Association (NDAA).
    The successful rehabilitation and re-entry of ex-offenders into the 
community demands the attention of prosecutors throughout the country, 
because, quite simply, the welfare and safety of the public are at 
stake. Recidivism by formerly incarcerated individuals takes a 
tremendous toll--in terms of both the immediate harm caused by the 
criminal conduct, and the direct and indirect costs of recidivism, such 
as the criminal justice system costs of investigation and prosecution, 
the incarceration costs, and the myriad social costs (medical care, 
foster-care, and welfare system costs) resulting from the impact of the 
crime on the victim and victim's family and friends, and even on the 
offender's family and friends. Communities, often already economically 
fragile, are threatened with further destabilization. The NDAA 
recognizes the importance of reducing recidivism rates of ex-offenders 
and supports the development and implementation of innovative programs 
to assist with prisoner reentry issues.
    Because successful re-entry can have such a positive impact on an 
individual's and, by extension a community's, well-being, Kings County 
District Attorney Charles J. Hynes, in 1999, created in ComALERT 
(Community and Law Enforcement Resources Together)--in close 
collaboration with Counseling Service of EDNY (an out-patient drug 
treatment provider), the Doe Fund (a not-for-profit organization 
providing transitional employment and housing), the New York State 
Division of Parole, and numerous community-based social services 
providers. ComALERT is not a re-entry court. It is a re-entry 
partnership for Brooklyn residents who are on parole and who have been 
mandated to engage in substance abuse treatment.
    The program assumed its present structure in October 2004. There 
are currently approximately 150 active participants in ComALERT. For 
most clients, the program lasts three to six months. Between October 1, 
2004, and October 1, 2007, 446 clients graduated from the program. The 
program graduation rate is approximately 53%.
    Most ComALERT clients are recently released from prison and are 
referred to the program by Parole. ComALERT representatives also 
regularly perform informational sessions, via video hookup, at various 
prisons throughout New York State, explaining the program and the 
services offered. As a result, some clients, even if not referred to 
ComALERT by their parole officer, nevertheless choose to enroll in the 
program once they are released.
    At ComALERT's downtown Brooklyn location in the Municipal Building, 
ComALERT clients receive outpatient substance abuse treatment from 
state-licensed drug treatment counselors. Each week, clients attend one 
individual counseling session and one or two group sessions. They are 
also regularly tested for drug use. Once drug testing results verify 
that a ComALERT participant has been drug- and alcohol-free for at 
least 30 days, he or she can begin engaging in other services, and, per 
the referral of the primary counselor, will meet with ComALERT's 
Community Resources Coordinator, an employee of the District Attorney's 
Office.
    Approximately one-third of ComALERT clients receive a referral to, 
and preferential placement in, the Doe Fund's Ready Willing & Able 
(RWA) program, which provides transitional employment, transitional 
housing (if needed), job skills training, 12-step programs, and courses 
on financial management and other life skills. RWA participants work 
full time in manual labor jobs, primarily street cleaning, and are paid 
$7.50 per hour. A portion of the salary is deposited directly into a 
savings account for the client. They receive meals and other services 
in a Doe Fund facility. After nine months of transitional employment, 
participants begin the search for a permanent job. During this process, 
they continue to receive a stipend. Once RWA participants secure 
permanent employment and housing, they graduate from the program, and 
the Doe Fund continues to provide them with $200 per month for five 
months. ComALERT's weekly individual and group counseling sessions and 
periodic drug testing help clients maintain sobriety and their 
enrollment in RWA, which enforces a zero-tolerance policy for drug and 
alcohol use.
    In addition to providing referrals for RWA and other transitional 
employment, ComALERT's Community Resources Coordinator also links 
participants to a wide range of other social services offered by 
community-based providers, such as transitional housing, vocational 
training, GED test preparation, family counseling, and job readiness 
programs. Service referrals are specifically tailored to meet the needs 
of the individual clients.
    On site, at the ComALERT Re-Entry Center, participants may attend 
HIV/STD/hepatitis workshops, and be seen by an on-site doctor who 
conducts physical health assessments and provides referrals as 
necessary. ComALERT participants who need mental health treatment, but 
only at a moderate level, may receive such treatment from their 
ComALERT primary counselor. If the client has a serious and persistent 
mental illness and needs treatment involving medication, the primary 
counselor or the on-site doctor will refer the client to an outside 
mental health treatment provider. ComALERT plans to augment, in the 
near future, the range of wraparound services offered on site.
    Professor Bruce Western, formerly of Princeton University and now 
at Harvard, recently completed research evaluating ComALERT. Professor 
Western has analyzed the recidivism rates of ComALERT graduates from 
July 2004 to December 2006, and compared those rates to all ComALERT 
attendees for that period (i.e., for all participants regardless of 
whether they graduated or were discharged) and to those of a matched 
control group of Brooklyn parolees who did not participate in 
ComALERT.\1\ Outcome percentages for ComALERT graduates were 
substantially better in all categories when compared to those of a 
matched control group. One year after release from prison, parolees in 
the matched control group (who did not have the benefit of ComALERT) 
were over twice as likely to have been re-arrested, re-convicted, or 
re-incarcerated as ComALERT graduates. Even two years out of prison, 
ComALERT graduates showed far less recidivism than the parolees of the 
matched control group. Twenty-nine percent of ComALERT graduates were 
re-arrested, 19% re-convicted, and only 3% re-incarcerated for a new 
crime.\2\ By contrast, 48% of the matched parolees were re-arrested, 
35% re-convicted, and 7% re-incarcerated on a new crime. Even re-
incarceration based on parole violations occurred much less frequently 
for ComALERT graduates (16%) than for parolees in the matched control 
group (24%).
---------------------------------------------------------------------------
    \1\ Erin Jacobs, ComALERT's Research Director, collaborated with 
Professor Western on this research.
    \2\ Although the comparison is imperfect, the recidivism rates of 
ComALERT graduates were dramatically lower than for prisoners released 
from state prisons in general. A study conducted in 2002 of inmates 
released from state prisons in 1994, concluded that, two years after 
release, approximately 59% had been re-arrested, 36% re-convicted, and 
19% re-incarcerated for a new crime. P. Langan & D. Levin, Recidivism 
of Prisoners Released in 1994 at 3, table 2 (U.S. Dep't of Justice, 
Bureau of Justice Statistics, NCJ 193427, June 2002).
---------------------------------------------------------------------------
    As to employment, ComALERT graduates were nearly four times as 
likely to be employed as the parolees in the matched control group, and 
they also had much higher earnings than parolees in the control group.
    These results validate ComALERT as an effective collaborative model 
for ensuring that ex-offenders make a successful transition from prison 
to the community.
    Certain aspects of ComALERT appear to be very important to its 
success. For example, the program's emphasis on substance abuse 
treatment and employment assistance addresses two major stumbling 
blocks to successful re-entry and re-integration-drug use and 
unemployment.
    In addition, the speed with which those leaving prisons are linked, 
through a referral from Parole, to the ComALERT program is important to 
ensure that former inmates begin receiving treatment and supportive 
services at a time when they might be most vulnerable to start slipping 
back into their old lifestyle of drug use and crime-namely, the first 
few months after release from prison. Moreover, ComALERT's substance 
abuse treatment provider partner, Counseling Service of EDNY, has 
secured state funding so that even if a ComALERT client does not have a 
Medicaid card, the client can begin engaging in substance abuse 
treatment immediately. So that clients become Medicaid eligible as soon 
as possible, ComALERT also has staff on site to assist with obtaining 
needed documentation (such as birth certificates, etc.) for rapid 
benefits enrollment.
    Finally, the fact that both the client's linkage to social services 
and the delivery of those services are coordinated and tracked by a 
single program, ComALERT, which itself maintains constant contact with 
the Division of Parole, means that parolees receive the services that 
they really need without an inefficient waste of resources.
    In considering legislation that is aimed at promoting inmate 
rehabilitation and successful re-integration into society, I would urge 
this Subcommittee to consider the importance of an ex-offender's speedy 
and coordinated linkage to social services, especially substance abuse 
treatment and employment assistance.
    I understand that the Subcommittee is also now looking at 
legislation that would provide federal funding to agencies delivering 
coordinated social services to individuals who have been released from 
prison after being found factually innocent of the crimes for which 
they were incarcerated.
    Certainly, those who end up behind bars for crimes that they did 
not commit may well have social service needs, such as for drug 
treatment and employment assistance, that are no less acute as those of 
ex-offenders leaving prison. A coordinated effort to meet those needs 
would assist wrongly convicted individuals successfully re-integrate 
into society after the disruptive and potentially traumatic impact of 
imprisonment, and would help them become healthy, productive citizens. 
Because we rely on a criminal justice system that can never be free of 
human error, we have a concurrent responsibility to assist in the re-
integration of those who were unjustly removed from society as a result 
of that system. Moreover, prosecutors have an additional public safety 
interest in seeing that any person who is having difficulty re-
integrating into the community following release from prison receive 
the support services that they need. A sober and employed former inmate 
who has strong connections to family and community is less likely to 
commit a crime than an unemployed drug addict who is alienated from any 
social network.
    I would caution, however, that the fact that a conviction has been 
vacated or reversed by a court is not tantamount to a finding of 
innocence, and the reversal or vacatur of a conviction should not make 
an individual immediately eligible for services. In fact, most of the 
time that there is a vacatur or reversal of a conviction, the 
prosecuting agency, be it the state or the federal government, will 
have the opportunity to retry the defendant. A defendant who has 
charges pending against him or her obviously stands on very different 
footing than an individual against whom all charges have been dismissed 
because, for example, DNA testing indicates that another person 
committed the crime.
    Finally, I would note that the NDAA supports increases in federal 
funding to help correctional facilities not only develop and implement 
appropriate individualized re-entry plans for prison inmates, but also 
provide necessary medical and mental health care (including substance 
abuse treatment), vocational training, educational programs, and life-
skills training, as a means of smoothing the transition back to 
productive community living. Such programs will benefit all 
incarcerated individuals

    Mr. Scott. Thank you. Thank you very much.
    I thank all the witnesses for your testimony.
    We will now have our panel pose questions, and I will 
recognize myself to begin for 5 minutes.
    Ms. Woolard, is there any research to say whether primary 
prevention and-or early intervention actually reduces 
recidivism with juveniles or reduces crime with juveniles?
    Ms. Woolard. There certainly have been evaluations of 
particular programs that indicate that early intervention can 
be successful. The Office of Juvenile Justice and Delinquency 
Prevention, for example, has their Blueprints programs out of 
the Web site on the University of Colorado that has documented 
scientifically through experimental evaluation the success of 
some programs in reducing recidivism among juveniles.
    Mr. Scott. What evidence is there about locking up more 
juveniles as adults increasing the number, that is to say those 
who are not now locked up prosecuted as adults, but increasing 
the number? Would that be helpful or counterproductive?
    Ms. Woolard. Well, the research that we have coming out of 
Florida where I used to be and New York-New Jersey comparisons 
indicates that for the majority of crimes they study, where 
they compare kids that have been prosecuted as adults or not, 
that those who were prosecuted as adults recidivated more often 
and faster, I think, for almost all the crimes they studied. 
There was either no effect or it actually exacerbated 
recidivism for the studies we have so far.
    Mr. Scott. Were the crimes more or less likely to be 
violent?
    Ms. Woolard. That I actually do not recall, the type of 
crime that was different.
    Mr. Scott. Ms. LaBelle, on eliminating life without parole, 
you indicated that the bill would eliminate life without 
parole. Would it be more accurate to say that it may not 
eliminate life without parole, but it would make the person 
eligible for parole. Some may not ever make parole. Is that 
right?
    Ms. LaBelle. That is correct, that the child would just be 
reviewed for parole. There may be a decision that that person 
would have to continue to stay in, but at least it would 
provide for individualized review, an opportunity.
    Mr. Scott. Thank you.
    Professor Turley, if our goal is to reduce crime in a cost-
effective manner, how useful is it to deny the possibility of 
any consideration for parole for those over 45 or certainly 
over 55 years of age?
    Mr. Turley. Well, we have already seen what happens. That 
is when we talk about the reforms in 1983, as Mr. Krone did, 
since 1983 and since many of the changes in the States, we have 
seen an increase in recidivism that most States are 
experiencing, recidivism rates. The average in the Federal 
system and the State systems is 67 percent. Most parole boards 
did a lot better than that, and some did exceptionally well 
before they were eliminated.
    And the reason is it is based on a lot of data that shows 
that as you get older, you become statistically less likely to 
commit a new offense. It does not mean that it applies to 
everybody. There are late bloomers. There are habitual 
offenders, avertable recidivists.
    But if you take a look at the Department of Justice's own 
studies, for example, if you look at the uniform crime reports 
from November 2003, the age-specific arrest rates, you will see 
on this chart that when you are above age 50, the rate of 
recidivism is the same as people who are 14 and younger.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Turley. So you see what happens to recidivism is it 
peaks and then it continues to fall. We need to rely on science 
and to have some logical connection between our policies of 
incarceration and what we know of our recidivism. We know a lot 
more about recidivism now than when I went to law school.
    In the age of computers, we have been able to identify and 
predict with a very high likelihood of success. We should use 
that not to give people a free ride, but to make mature 
decisions that can reduce recidivism because right now the 
wrong people are getting out. The younger prisoners that are 
being released are much higher in likelihood of committing a 
crime. But we hold on to people who may become statistically a 
low risk.
    Some of the prisoners I interview in prison are 
statistically lower risk than the students I drive to prison 
with.
    Mr. Scott. Is the age of release as important to consider 
as the length of the sentence?
    Mr. Turley. Well, there are a number of factors. What age 
does is it identifies a population where the yield of low-risk, 
high-cost prisoners is the greatest. It is not a magical 
number, but what it does is it gives you a body of people where 
the yield is the greatest, and then you, with these other 
elements, sort out people who are higher risk, mid risk, low 
risk.
    The crime that they are in for is very, very relevant. If 
someone is in there for a violent crime, you measure that 
harshly. Also, if someone has not served beyond the average of 
their offense, we generally do not consider them at POPS. We 
also look at the pattern of criminality. If it is a first 
offender, it is very different from somebody who has been a 
habitual offender, and you can also track people that seem to 
be graduating up.
    So there are lots of ways to do it. This is not some smoke 
and mirrors thing where we all sit there and just guess at 
things. You know, this is a science, and it has become very, 
very accurate. It does not mean it is 100 percent, but I can 
promise you this. I do not know any recidivism test that would 
come anywhere near the failure rate of the current system.
    Mr. Scott. Thank you very much.
    My time has expired.
    Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    Once again, I want to thank all of you for being here, but 
also your patience with us going back and forth to votes. It is 
very difficult for us because we have seven of you here. We 
would love to ask you a lot of questions. I have 42 seconds for 
each person, so I cannot do that. So I want to just address a 
few things and feel free to put anything in the record that you 
might want to supplement or add to because I have to be kind of 
brief in the 5 minutes that I have.
    You know, the gentlelady from Texas concluded her remarks 
earlier by saying we just have philosophical differences.
    But, you know, Professor Woolard, you went to one of the 
greatest universities in the world. You could not have done 
better.
    And, Professor Turley, you know, you all get to sit in 
class and think lofty thoughts and ideas.
    You know, here, this is not about philosophy. This is about 
a piece of legislation that is ultimately going to put a key in 
the door and let somebody out or it is going to put somebody in 
jail, and so we have to look at the wording. We have to look at 
the legislation. That is what we do here. We pass legislation, 
not ideas.
    On this particular piece of legislation, I just want to 
make everybody sure of one thing. I agree that we need prison 
reform. I mean, we have had testimony about people who are 
raped in prison. We know the situation. We need to change that.
    Mr. Krone, your testimony, nobody questions that for 
somebody who is proven factually innocent we need to do 
something to compensate that. You went through hell, and, you 
know, I am just amazed that you could withstand that and you 
could come out and do the stuff that you do. And I read some of 
your stuff of your faith and all that got you through that, and 
I admire you for that. So we do not disagree with that.
    But there is a difference in your situation and someone 
that a governor sits back somewhere and just says, be it for 
political reasons or whatever, ``I am just going to pardon that 
person,'' and the legislation before us does not differentiate 
that.
    The second thing that we look at is we cannot have our cake 
and eat it, too. We are overcriminalizing stuff every single 
day. In this Committee alone, we are passing legislation on 
what people say and sometimes what they think because we do not 
like that and that is politically correct. We have to stop 
doing that because a lot of people that commit criminal acts 
today, have no idea that they did something that was criminally 
wrong.
    Ms. LaBelle, you have talked about children and the child, 
and, you know, when you have this connotation of--I have four 
children--you know, somebody in there with a little Teddy bear 
that I am putting my arm around. Most of the people we are 
talking about who get life without parole are not little people 
holding Teddy bears.
    I mean, you know, the case that you mentioned, the Simmons 
case, this guy plotted a murder where he looked at his co-
defendants and he said, ``We are not going to get punished 
because we are minors,'' you know, and ``We are going to go in 
there and kill this woman.'' They went in there. He 
intentionally did it. He took her out, put tape around her, 
wrapped her feet up with wire, threw her over a bridge to 
drown, and I am going to tell you I do not have any problem at 
all looking to somebody like that who is 17 years old--he could 
have been a month before he is 18--and looking at them and 
saying, ``Buddy, you are gone for life without parole.''
    Lee Malvo killed 10 people, many of them from my State, you 
know. I cannot look at their children that will never see their 
parents again or the brothers and sisters. I cannot say to 
them, ``Okay, now we are going to have a relook at this where 
you all get to go back to the husband or wife that you lost.''
    We do not get that shot again, and so I do not have a 
problem looking to Lee Malvo and saying--you know, at 17 years 
old, I have to balance this some way. I have to look at what 
the States do, the courts do, and the juries do, and they say, 
``He needs to go away. You know, he needs to go away for life 
without parole.'' And he is not a little speeder. He is 
somebody that killed 10 people.
    We have had testimony in here of ladies whose husbands were 
killed by a gang member, 17, put a gun to their husbands' heads 
and killed them for one reason--to be initiated into a gang. 
You know, I do not have as much sympathy in those situations.
    And, Mr. Turley and Ms. Woolard, you know, you all have 
competing claims here. I mean, Ms. Woolard is saying we ought 
to be easier on younger people because they cannot formulate 
their decisions as well, Mr. Turley is saying we ought to let 
older people out because they are not going to commit the 
crimes as much. And the reality is, if any of you have been in 
sentencing hearings and proceed rings--Ms. Woolard is shaking 
her head. I am sure Mr. Turley has--that judge has to take into 
account a lot of things. He gets a lot of testimony--the 
previous record that they have, the gravity of the crime, the 
effects on the victim, the likelihood to commit another crime--
and that judge and jury makes a sentence at that particular 
point in time.
    To have a piece of legislation like we have before us 
today--Mr. Turley, I do not even think you would agree with--
that says at 45, if you have committed half of your sentence, 
we are going to automatically mandate that we open that jail 
cell and you walk out. You would not even agree with that, 
would you?
    Mr. Turley. I think that the language should be changed 
and----
    Mr. Forbes. Well, that is the language we have, you know, 
that is here.
    And the final thing I just want to tell you, when we do 
that, it is an absolute affront to every judge, every jury, 
every prosecutor that has worked hard in getting that sentence 
right at the beginning and then to say, ``We do not care what 
you did, we are going to over rule it, and we are going to let 
these people out.''
    And the last thing I just want to tell you is this. Ms. 
Woolard, I think you mentioned this. You said those prosecuted 
as adults are more likely to have recidivism. Is that a fair 
statement?
    Sure! I mean, part of the reason is because if they are 
prosecuted as adults, most of the time, it is because they have 
done something that is, you know, a lot worse, you know, I 
think in a lot of situations. So I think that makes good sense.
    But, once again, thank you all for being here. Please feel 
free to submit anything to the record.
    The red light is on, and I yield back.
    Mr. Scott. Thank you.
    Mr. Conyers?
    Mr. Conyers. Randy Forbes, our Ranking Member, has 
underscored my idea for a discussion amongst us that is 
provoked by the subject matter and presence here. And everybody 
has agreed to it--the Chairman of the Committee, the Ranking 
Member--and I have not talked to Judge Gohmert about it yet, 
nor Howard Coble, but I think we need these kind of enlightened 
public discussions where we talk among ourselves. We might even 
invite you to sit in as invitees, so I am going to be pushing 
that forward, and you will be hearing more about it.
    Professor Turley, I have gotten over your unconstitutional 
view of voting rights for the District of Columbia and---- 
[Laughter.]
    Mr. Conyers. --I am feeling very good about you as I always 
had before I heard your explanation of that, and so I am glad 
that you are here.
    And I am always happy to see a Wayne State University Law 
School graduate there for very obvious reasons, and I welcome 
Attorney LaBelle. And I wanted to ask you and Ms. Woolard this 
question. With two guys, 17 and 12--and I try to let them in on 
everything we are doing--what would be the benefit or harm of 
talking with my boys about what you two have talked about 
today?
    I mean, is it good for them to hear about the fact that 
they may be going through a little bit of a period of beast 
ability and maybe emotional turmoil just to let them know that 
I know how they are feeling, and I have science to back me up, 
or what? I mean, how do we approach this on a very personal 
level now that I have both of you in the room, and we are just 
talking among ourselves? What do you think?
    Ms. LaBelle. Well, speaking of someone who has a new 13-
year-old, I think that we all as parents do recognize that 
there are some significant differences between children. To be 
very non-scientific, they can be just incredibly goofy and 
immature at times and make ill-considered decisions.
    While Mr. Forbes spoke of 17-year-olds, there are also 13-, 
12-, 14- and 15-year-olds that are caught up in this mandatory 
life without parole in many States where the judge has no 
discretion. And no one can individualize, and one of the 
important things that we have learned in talking, in polling 
and focus groups, is that what citizens of the United States 
greatly need in their criminal justice system is individualized 
consideration and some sense of equity.
    What happens now is no individual consideration of a 14-
year-old who just goes along with an adult and is convicted of 
a felony murder and a 17-year-old that was described that does 
a homicide or a multiple homicide. And what this bill would do 
would put back in individual consideration as to the crime and 
as to the child and allow an opportunity for them to maybe go 
home.
    Mr. Conyers. I have been thinking about all of the cases. I 
mean, we passed one of our bills out on the floor yesterday. 
There were lynchings in America up until 1968. You say, ``Well, 
wait a minute. Did you transpose a figure there by accident?''
    I am thinking about what if we started a bank of all the 
cases, all the criminal justice cases, State and Federal, that 
there have been obvious or grave miscarriages, not just the 
ones that were corrected, but the ones that are happening. 
Maybe a bank like that exists somewhere, but I think that we 
ought to start one until somebody calls up and says that we are 
doing the same thing. So I want to leave that for my Chairman 
of Crime Committee to help us think about.
    Do you have any thoughts on that, Professor Turley?
    Mr. Turley. Well, in response to your first question, I am 
the father of four habitual offenders, so I have talked to them 
about it. In fact, the testimony today I have talked to them 
about, what this hearing is about, and I think that it does 
raise a very important issue, which is how do we explain the 
current system to our children? I mean, what is the point of 
it, that we have a system that is cranking out high recidivism?
    I just did a study of California which took my breath away. 
I thought the statistics were wrong. I called up their 
correctional department to say, ``There must be something wrong 
here. You are showing recidivism rates in some categories of 90 
percent. You are showing an average of 70.'' Now that is 
basically having a system that is no better if you take it off 
line. I mean, it is doing nothing.
    And I think that the important thing about your question is 
I cannot explain to them what we are trying to achieve because 
we are not achieving much. I believe in punishment, and I 
believe in old people being punished because they have a right 
to be punished if they have done the crime, but I also believe 
in a system that has a purpose, that makes mature decisions, 
and we do not have that.
    So whatever disagreement we have on this bill and how it 
might be changed, the one thing I do not think we can argue 
much about is we do not have a system now that is achieving 
anything but generating high recidivists in crime.
    Mr. Conyers. Well, I am taking this all back. We may need 
another hearing to check out our results in our individual 
families.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Conyers.
    The gentleman from North Carolina, Mr. Coble?
    Mr. Coble. Thank you. Thank you, Mr. Chairman.
    Good to have you all with us.
    Professor Turley, I do not mean to be speaking for the 
entire Judiciary Committee, but I think they would all agree 
with me in expressing appreciation to you for the very fine 
article you wrote in memory of the late Henry Hyde. I think 
that appeared in The Chicago Tribune?
    Mr. Turley. Yes, sir.
    Mr. Coble. It is an excellent article, and we thank you for 
that.
    Mr. Krone, thank you for your testimony. There is no way I 
can say to you I know how you feel, did not go through it, but 
thank you for being here with us.
    Now, Mr. Chairman, the distinguished Ranking Member from 
your state of Virginia, has raised some good points, I think, 
that indicate that some fine-tuning may be necessary. I do not 
think we need to major overhaul the bill. And, Mr. Chairman, as 
you remember, I supported the Second Chance Act, sort of a 
companion bill with this one.
    Let me ask the U.S. attorney a question, if I may. Mr. 
Wrigley, describe for us, if you will, the situations where a 
person may be retried after their conviction is vacated or 
reversed.
    Mr. Wrigley. I apologize. I could not hear the end of your 
question. I am sorry.
    Mr. Coble. I say describe for us the circumstances, the 
situation in which a person may be retried after his or her 
conviction is vacated or reversed.
    Mr. Wrigley. Okay. Well, let me give you an example from my 
State. Shortly after I became U.S. attorney, there was a rather 
notorious--it happened to be a murder case, but it could be any 
kind of a case--criminal case. A notorious murder case was 
tried in State court across the river in Minnesota. The judge 
there made a ruling that was not on the firmest ground, you 
know, made a discretionary call on an evidentiary matter and 
allowed the person's wife to testify against him because he 
ruled that their marriage was a sham, and he should not be 
afforded protection under the marital privilege, and so she was 
allowed to testify in Minnesota state court, he was convicted, 
and the matter went up to----
    Mr. Coble. Make it quick because I only have 5 minutes.
    Mr. Wrigley. Oh, yes, sir. It went up to the State supreme 
court, and the State supreme court reversed it in Minnesota. It 
came back, and that county court over across the river would 
have been allowed to try that case again just not using that 
evidence. Basically, the court sent it back, said, ``Try it 
again, but now do it within the confines of our ruling and our 
evidentiary ruling.''
    So that is fairly common, frankly. It gets sent back, and 
it is just determined that an improper ruling was made by the 
trial court on an evidentiary matter, and I think that would 
probably be your most common retrial purpose.
    Mr. Coble. All right. I thank you, sir.
    Professor Turley, is it your opinion that a lower 
likelihood of recidivism should be grounds for early release?
    Mr. Turley. Yes, sir.
    I mean, first of all, let me thank you for your comment, 
and it is a privilege to be here. I know Henry Hyde is being 
buried tomorrow, I believe, and it is a great privilege to be 
in this room with his portrait and to think about his wonderful 
service to this Committee which he loved a great deal.
    Yes, I do believe that the touchtone of whatever we do has 
to be recidivism, and we have a wealth of studies to make 
decisions based on recidivism, and we have had a revolution in 
science in the last 20 years. In 1983, the science was not 
nearly as evolved as it is today. So we can make decisions, and 
the rate of recidivism, if we make the decisions correct--we 
have not had, as far as I know, any POPS prisoner that has 
recidivated, but we are very, very careful, and we are very 
conservative in how we select.
    It is not that you are going to have a perfect system, but 
if the measure is the current system, I can promise you that I 
can do a lot better in the Federal system than, you know, a 67 
percent failure rate. I mean, we are talking about less than a 
10 percent failure rate. If I am over 10 percent, I would be 
appalled. I would consider that a terrible system.
    Mr. Coble. Let me try one more question before the red 
light illuminates and the Chairman comes after me.
    We all know, I think--I will put this to anybody on the 
panel--sex offenders have one of the highest, if not the 
highest, rates of recidivism of any class of offenders. Do you 
all have any objection to the early release of those convicted 
of possession of child pornography or sexual solicitation of a 
minor, neither of which would be classified as a crime of 
violence? What do you all say to that?
    Professor Woolard?
    Ms. Woolard. Well, certainly, the recidivism rates that you 
talk about we do see higher among certain classes of sex 
offenders than we do for other categories of crime. So that, I 
think, is pretty well established.
    In terms of your specific question about what the bill 
should include or not include, you know, I can provide you 
information about recidivism, and then I think it is your 
decision, you know, as the policymakers, in terms of what 
crimes are included or not included. They do have a higher rate 
of recidivism, certain groups of them do.
    Mr. Coble. Thank you all for being with us.
    Mr. Chairman, I see my time has expired.
    Mr. Scott. Thank you.
    The gentlelady from Texas, Ms. Jackson Lee?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And I want to again associate myself with the Chairman of 
the full Committee by applauding him for giving us another one 
or two or three bites at this apple which is enormous, and it 
is an important discussion where we can grapple with what I, 
frankly, believe is a broken system.
    My good friend from Virginia has indicated a philosophical 
difference, and what I was suggesting to him is the philosophy 
in discussion results in policy, and that is what we are to do, 
policy and law, and so there is a difference in the philosophy 
of what results in progress or success and what we all want.
    Really, I think, the best of all worlds is a crime-free 
world and a world that we can account for those who have 
perpetrated crimes and we can say truly rehabilitated and 
present and ready to contribute back to society. So that is the 
framework of the Federal Bureau of Prisons Nonviolent Offender 
Act.
    And, Mr. Mosely, I agree that there is a partnership to 
good time, though it is different, and what I would like to do 
is just delay the framework and ask that this be submitted into 
the record. But if you look at our own state of Texas, now we 
are at 147,993. That is in 2003. So our numbers are not 
complete. But we are spending $2 billion in the incarceration 
of persons, and I would say to you that there are probably a 
good number of bad actors that are incarcerated there, but 
there are probably a good number of elderly persons there or 
people that are aging in the prison system, and, of course, we 
know that Texas does have an early release program.
    If we look at the cost of Federal and State corrections, we 
are seeing that in 1980 we spent $9 million, and now we are 
spending $60 billion, and to incarcerate a person, it costs 
about $24,000. To have a person in community corrections, it 
costs $20,000, but to have someone on a Federal offender 
supervised program, it costs about $3,000. And, of course, you 
can finish your term in the Federal system and be on probation. 
You have sort of a probation period, and I think that is 
important to note.
    So, Professor Turley, let me also suggest to you, as I ask 
you some pointed questions, that we want to find solutions, and 
I have already indicated--we used the words ``tweak,'' 
``amended''--I think we have a good framework to amend.
    I want to ask, Mr. Chairman, that those poster boards--at 
least the text of those poster boards--be submitted into the 
record.
    Mr. Scott. The information from the poster boards will be--
--
    Ms. Jackson Lee. Thank you. The text I said of the poster 
boards.
    And I do want to thank your staff and Bobby Vassar and all 
of your staff, and I want to offer into the record a document 
that says Uniform Crime Reports, November 2003, which shows a 
graph that says that an elderly person has as much propensity 
to perpetrate a crime--this is science, as we have said--as 
about a 12-year-old. We do know that people getting younger who 
are committing crimes, but statistically it says that these 
ages are at the lowest level of committing a crime.
    I would like to submit that into the record as well, and 
that is only one sheet, Mr. Chairman. I ask unanimous consent 
to submit this into the record.
    [See U.S. Department of Justice information on page 82 of 
this publication.]
    Ms. Jackson Lee. Thank you.
    So I want to pose these questions with that framework, 
Professor Turley, and that is, one, let me just say that I 
accept the fact that we want to frame the legislation through 
an amending process, and I am delighted to note that with that 
tweaking my Chairman of the full Committee is to be and very 
interested in joining us, as I expect a number of others in co-
sponsoring the legislation. I appreciate it.
    One, the legislation on its face does not define the 
question of violence, and that, obviously, is something that we 
would look at, but neither have we found that in the Federal 
Bureau of Prisons. So we want to work on accepting the fact 
that there are certain actions or certain crimes that we would 
be willing to eliminate.
    But going to the point of recidivism, how reliable is age 
in predicting recidivism, coming from you and your research 
that you have done?
    And then you referred to making mature decisions about our 
prison system and preventing new victims that are due to 
overcrowding. How does overcrowding produce victims, which is 
what we are facing in our prison system today?
    You also mentioned that you have reservations. What I would 
like you to do is to give us sort of a road map of what might 
help strengthen the legislation for its very premise, which is 
documented science that recidivism is very low in older 
populations, and my component is that not only is it low, but 
they could be contributing, 45, 48, 50--the age may vary--can 
still be contributing even to the extent of restitution and, of 
course, helping their families become independent of public 
assistance.
    I gave you three questions, and I appreciate your response.
    Mr. Turley. Thank you very much. I do not remember the 
order, so I will just take them as best I can.
    Ms. Jackson Lee. That is okay.
    Mr. Turley. First, I think the legislation is a wonderful 
framework for us to work in, and like many pieces of 
legislation, it can be tailored. I think some of the objections 
raised so far--not really objections, but observations--I think 
it was foreseen that those would have to be incorporated.
    You can exclude certain categories of crime. I think we can 
all agree that terrorists should not be on this list and spies 
cannot be on this list. I have represented both, but I would be 
the first to say that they should not be on the list.
    I also want to note you are talking about a handful of 
people with those exclusions.
    Ms. Jackson Lee. Absolutely.
    Mr. Turley. So that is not----
    Ms. Jackson Lee. And right now, they are probably not in 
our system.
    Mr. Turley. Right. I mean, that would----
    Ms. Jackson Lee. In our population.
    Mr. Turley. Yes, a few dozen people very likely that could 
ever be under this law. And we also will probably want to 
exclude areas that science shows are simply a poor yield in 
terms of recidivism, things like molestation, child 
pornography. Those are the types of crimes that recidivist 
studies have shown do not diminish with age.
    So, if we agree on using the scientific foundation that we 
have, I think we can come to a very easy accommodation as to 
framing this question.
    In terms, however, of age, as you have raised, I do not 
know of anybody in this bill that does not agree that age is 
the most reliable predictor of recidivism, and when you graft 
on to that process other elements--age, criminal pattern, and 
other elements--it becomes very, very accurate. When I say very 
accurate, I am saying it is much, much more accurate than our 
current system. I do not know of any legitimate system of 
recidivism that would produce the types of results that we have 
under the current system.
    Now it gets to the last question. When we talk about 
protecting victims, I think the greatest victim protection law 
is a law that produces fewer victims, and we only talk about 
this in a post hoc way of, you know, what are we going to do 
with these victims. Let us have fewer victims.
    The problem with just saying, ``Well, you know, let us just 
lock them up,'' is I do not want to make this decision, no one 
wants to make this decision, and so we let the system go into 
chronic overcrowding. We let the system release the people of 
highest risk, and those people go out and commit new crimes, 
and nobody is answering for it because nobody wants to sign a 
piece of paper, nobody wants to come here and say, ``We have to 
make choices.'' And we need to fix that system because there 
are people being victimized today who would not be victimized 
if we had a prison system that worked.
    Ms. Jackson Lee. I think what is also important to put on 
the record is that we are facing this problem in the Federal 
system because we have mandatory sentencing without parole, any 
kind of release whatsoever.
    And, Mr. Chairman, could he just finish this question. The 
point has been raised that the victim----
    Mr. Scott. Very briefly because your time----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Scott [continuing]. Expired some time ago.
    Ms. Jackson Lee. If you could reiterate again that the 
argument that is made is that you are hurting the victims 
again. You know, the article suggested you do not want these 
outrageous persons to be out, like a Jack Abramoff or others, 
because there are victims. How do you respond to that?
    Mr. Turley. Well, first of all, Abramoff would not be 
subject to this law because he has to serve at least 50 percent 
of his sentence, and after we----
    Ms. Jackson Lee. I am glad you put that on the record, 
but----
    Mr. Turley. And furthermore, you know, if you make further 
tweaks, you can deal with people that have certain types of 
crimes, but I have to say even if Abramoff did finish half his 
sentence, you know, I do think that if you have a long sentence 
and someone has served half of it, then we can consider whether 
that person, as a first offender, should be released.
    My preference would be having what we had before. You know, 
Mr. Krone talks in glowing terms of what happened in 1983. What 
happened in 1983 is we eliminated the United States Parole 
Commission that made case-by-case decisions. The reason we are 
talking about a trigger law like we have here is because we 
have no body that can make case-by-case decisions, which is 
what I would prefer.
    Mr. Scott. The gentlelady's time has expired.
    Ms. Jackson Lee. Thank you.
    Mr. Scott. The gentleman from Texas.
    Mr. Gohmert. Thank you, Mr. Chairman. And I do appreciate 
the witnesses being here today. I do have a number of comments.
    Having been a prosecutor, a judge, a chief justice and also 
having been ordered to handle some criminal cases--in one case, 
a death penalty appeal--I think all of which I did a pretty 
amazing job on, including having the death penalty reversed, I 
understand about both sides of the docket, and I think there is 
no question we have an obligation as a society and 
responsibility to attempt to rehabilitate prison inmates. But 
we also have to be very careful not to create incentives to do 
the very things that people are being punished for, and that is 
a concern I have had.
    We saw the pendulum in the 1970's, and I think in the early 
1980's, in Texas was more to release people early. People 
through the 1980's in Texas were getting cut loose with just a 
tiny fraction of their time, sometimes doing 1/12th or less of 
a sentence, and so there was a push for truth in sentencing. 
When the Republicans had the majority in Congress and the 
Republicans took the majority in Texas, there was this huge 
push toward truth in sentencing. So judges and juries knew 
exactly what the consequences of the sentences would be.
    What we have seen in the recent few years is a retreat from 
that position, and, you know, if you are a historian like I am, 
you see these pendulums going back and forth. And I get the 
impression the pendulum for a couple of years now has been 
swinging back the other way toward cutting slack. We saw crime 
rates dropping as we got tougher in Texas and dropping and 
dropping and dropping, and now they are a little bit more on 
the upswing.
    So, Mr. Turley, I have tremendous respect for your legal 
intellect. Sometimes we have agreed, and sometimes we have not, 
and I appreciate you whether we agree or not. But when you say 
this is a science, if that is true, it is one of the most 
inexact sciences there is.
    And also the point needs to be made this is not simply 
about science. This is also about justice. Now we can bring in 
here case after case----
    And, Mr. Krone, I have nothing but sympathy for you, and 
there are so many others where there has been injustice, but 
there are also as many victims who have never to this day seen 
justice. And so when we have a bill that is being proposed as 
one of these is today, that we are going to start paying people 
who have been pardoned, which means they were not exonerated, 
they were just pardoned, but we are going to create a 
definition that says, ``We are going to consider you exonerated 
just because you have been pardoned'' or your conviction has 
been vacated or reversed, and people like me know that you have 
cases which have been reversed because some judge did a 
problem. I have seen a couple of them in other courts in our 
country, reversed because of some technical problem.
    And so they are retried and, in some cases, three times get 
convictions, and by the time it ultimately gets sent back for 
trial again, witnesses have died and the courts have ruled you 
cannot use those people's prior testimony because they are not 
allowed to confront the witnesses with new issues that have 
arisen. Therefore, guilty people have walked free. And that 
happens.
    And under this bill, we are saying we are still going to 
pay you. The victims in those cases never got justice, and yet 
we are going to say we are going to aggravate that circumstance 
by paying defendants simply because they hit the jackpot and 
got released because of some problem in the trial court, I 
think that would be a problem.
    There has been a big push in recent years to have life 
without parole instead of the death penalty. What we are saying 
with some of this legislation is: Keep in mind if we convince 
you to get rid of the death penalty and go with life without 
parole, we are going to come in, pull the rug out from under 
you, and cut your guys loose in 15 years. That is not exactly 
right either.
    There is another message from some of this legislation we 
are considering today, and that is if you want to commit 
crimes, do what this couple that was caught yesterday did, get 
involved in stealing identities, wrecking lives, destroying 
lives where people cannot buy homes, cannot get credit, cannot 
get jobs, do that kind of crime because that would be a 
nonviolent crime, and we are already showing that we want to 
cut you all kinds of slack. White collar crime, Enron felons, 
we want to cut you slack. That is the pace to go if you are 
going to be an organized criminal. Make sure you get involved.
    I have had testimony from gang members and we have seen 
testimony from organized crime members who say, ``Look, we are 
businesspeople. We go where the percentages are best, and the 
punishment is least.'' We also see--and I have had testimony in 
my court--these folks are juveniles that actually pulled the 
trigger because they were encouraged. ``You are a juvenile. You 
are going to get cut slack that the rest of us cannot.'' They 
are businesspeople. They know how to play the odds.
    And I think that those things have to be considered. You 
cannot just consider recidivism. You have to consider 
deterrents, public safety, and, yes, punishment for 
punishment's sake.
    My time is up. Thank you very much.
    Mr. Scott. Thank you very much.
    I had just a couple other questions.
    Mr. Turley, we have heard about the idea of a governor's 
pardon might pardon a person who is factually guilty or 
factually innocent. Isn't it true that if the governor's 
exercises his discretion that it could be for absolute 
innocence?
    Mr. Turley. Oh, absolutely. Yes.
    Mr. Scott. And that as a matter, a lot of people who are 
absolutely exonerated are not exonerated in a court of law, 
they are exonerated because a governor issues a pardon and that 
a lot of the 100 who have been exonerated by DNA evidence, for 
many reasons, could not even get into court?
    Mr. Turley. Oh, indeed. In fact, one of the problems that 
we have, one of the frustrating problems, is the view of courts 
that exclude exculpatory evidence because of various reasons. 
The evidence may be excluded because of error of counsel. It 
may be excluded because it was raised too late under laws 
passed by Congress. There are limits on your ability to raise 
new issues on appeal. So all of those reasons can lead to the 
failure to consider evidence in a court of law that, in fact, 
could be considered by a governor.
    Mr. Scott. Now we have heard a lot about when you have so-
called truth in sentencing that they keep talking about the 
sentence as if the sentence is the same in all proposals. I, 
frankly, have never seen a proposal to abolish parole that did 
not concurrently reduce the sentence at least 50 percent--if 
you are being honest, three-fourths--because that is what a 
good comparison would be. If you double the average time 
served, in the situation of Virginia, you have 1\1/2\ to 10 
years, average 2\1/2\. You double the average time served. 
Everybody got out in 5 years. Those that could not make parole 
are getting out in half the time.
    Have you seen any proposal to abolish parole that kept the 
sentence exactly the same in the new system as the old?
    Mr. Turley. Well, I have not. As a criminal defense 
attorney, I can tell you that one of the big jokes among 
criminal defense attorneys is that the tough-on-crime 
legislation tends to favor the really hardened criminal because 
that guy would never have gotten through a U.S. Parole 
Commission, would never have gotten through a State commission. 
These are people that on parole boards would sit there and just 
take one look at your guy and say, ``There is no way I am going 
to release you early. I take one look at you, and I see an 
avertable or habitual offender.'' Under these laws, that guy 
benefits because he gets out automatically.
    The other thing I want to note is, in my testimony, I 
mentioned that some of the recent studies on the State level 
have actually presented some interesting results. One of them 
is that people who are in a parole system have a lower 
recidivism rate than people who max out in a non-parole system 
so that it is actually a significant difference, that if you 
are in the old parole system, you have a lower likelihood of 
recidivism.
    And if you look at some of the States, there are a handful 
of States that have actually lowered their recidivism and 
lowered their prison population. That State, which I talk about 
in my testimony, is actually a State that went back to 
indeterminate sentencing and put people into alternatives for 
incarceration. So the studies are actually going against our 
current system in terms of its effectiveness.
    Mr. Scott. Well, in going back to what Virginia did 1\1/2\ 
to 10 years, you call it a 10-year sentence, average 2\1/2\, we 
doubled the average time served, spending billions of dollars. 
If you look at what you did, following up on what you just 
said, for the lowest risk prisoner, you triple the time. For 
the average prisoner, you double the time. And for the worst 
prisoner that could never make parole, they are getting out in 
half the time.
    And for a proposal that lets the worst criminals out in 
half the time, you are going to spend $2 billion construction 
and $1 billion a year, $200 million per congressional district 
construction and $100 million operating every year, to start a 
proposal that lets the worst criminals out in half the time.
    Ms. Woolard, you indicated that on sex offenders, some sex 
offenders recidivate more than others. Could you provide us 
with the research that shows which of the crimes have higher 
recidivism rates and which do not, because I think most of our 
legislation kind of puts them all in the same basket.
    Ms. Woolard. Sure. I would be happy to bring that to you 
all and have you----
    Mr. Scott. Thank you.
    The gentleman from Texas, any questions?
    Mr. Gohmert. Yes. Thank you, Mr. Chairman. A little follow 
up. And some of your comments brought to mind--and Professor 
Turley's--we have one of those cases that is going on right now 
where there was a great injustice, I believe, a tremendous 
injustice at the trial, and that was two Border Patrol agents, 
Ramos and Compean, where the U.S. attorney's office apparently 
was not honest with the court and with the jury, and an 
injustice occurred, and I am certainly feeling that we owe 
those two Border Patrol agents some monetary help when they get 
out.
    So I realize that there are some good intentions and some 
good ideas here, but just like in the Second Chance Act, there 
is a right idea. We have to do a better job of rehabilitation, 
retraining, or educating in some cases for the first time, but, 
you know, my concern, as I said, through that bill was we are 
going about some wrong ways to try to get to the right result.
    You know, what we have seen in some of the recidivism 
numbers, and I agree whether it is parole or probation, it 
helps if you have a stick and carrot both out there for people 
when they are released. Whether it is an alcoholic or a drug 
addict, they need that supervision, they need the monitoring, 
they need some accountability, and that those can be very 
helpful in cutting recidivism from the numbers I have seen, and 
I would sure agree with that, and I am hopeful that that is 
more the direction we would go.
    But I also have to note that some of the things that I have 
heard today--and for part of this, I was sitting in the back 
room watching on television and taking notes--I have heard from 
a dear judge friend of mine. I think the world of her, she is 
one of the finest people you could ever meet, but she took some 
of these similar positions and that is what caused her in one 
particular case to keep giving a young juvenile a chance when 
he should have been locked up and should not have been let out.
    And because he was let out under that same type thinking--
we need to help, we need to encourage, we need to train, we 
need to educate, we need to do these things instead of just 
punishing somebody when they have done something very wrong--he 
got a couple other guys, they went out, they found an elderly 
fruit stand vendor, they kidnapped this poor gentleman, they 
terrorized this poor gentleman, and then they shot him in the 
back of the head and left him dead, and then ended up 
abandoning the idea of the bank that they were going to rob 
because they could not drive the stick shift truck of the 
gentleman.
    So, you know, some experiences like that cause me to go, 
yes, we do need to cut recidivism. There is no question. We 
need to do a better job of rehabilitation, no question. But 
sometimes when somebody is dangerous, they need to be locked up 
so that we do not create more victims, and that is also why the 
statistic about juveniles that commit terribly violent acts are 
more inclined to have recidivism. Sometimes they are just what 
under the old DSM used to be sociopath, but now I think would 
be antisocial personality.
    So there is work to be done. I think the intention is 
right, but, my goodness, we have to be more careful with the 
messages we send with the legislation that we take up.
    And thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you.
    Further comments? The gentlelady from Texas?
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I wanted to pose a question to Mr. Mosely. You had a very 
moving story, and I did not get a chance to speak to Mr. Krone, 
but I think the legislation that comments on compensation late 
but squarely responds to you as a victim. When we use the term 
``victim,'' there are victims, and we do not want to be 
insensitive to the crime victim.
    In your instance, Mr. Krone, you did not commit that crime, 
so the victim was not your victim or the victim that you 
victimized. You on the other hand had become a victim.
    And Mr. Moseley's point is those who have been sentenced--I 
was listening to you say 100 years, 125 years. Mr. Mosely, just 
on your particular offense, was that extraordinary? How did you 
wind up with--did you kill someone?
    Mr. Mosely. No.
    Ms. Jackson Lee. You need to get the mike, sir.
    Mr. Mosely. Is it on?
    Ms. Jackson Lee. Yes, sir.
    Mr. Mosely. I was indicted by a Federal grand jury on six 
counts.
    Ms. Jackson Lee. So some of yours was mandatory sentencing, 
I take it.
    Mr. Mosely. Well, I was facing 132 years, 120 in the 
Federal system, and I was also indicted for the same offense by 
the State of Ohio carrying another 12 years.
    Ms. Jackson Lee. And you served how many?
    Mr. Mosely. Well, I was sentenced to 10 years in the 
Federal system and 12 years concurrent in the State of Ohio, 
and I served a total of 7\1/2\ years.
    Ms. Jackson Lee. All right. And did you receive a good time 
response? Is that what you are saying?
    Mr. Mosely. Yes.
    Ms. Jackson Lee. All right. And so there allegedly were 
victims in your crime. How do you answer the question that 
there are victims? How do you answer the question of how you 
have been able to turn your life around and how you have been 
able to help your family by having a reasonable response to 
your incarceration, which is good time, utilization of good 
time?
    Mr. Mosely. Well, in several respects. Firstly, my crime 
was a money crime, kickbacks from contractors that were working 
for the city wherein I sat on the bench--I have been making 
restitution in that regard--together with the fact that I have 
had an opportunity to go to various institutions around the 
country, speak to men and women who are incarcerated, and 
encourage them with respect to paying back in any way that they 
possibly can. But also I am invited from time to time to speak 
to high school students and college students, and I make them 
aware in a talk that I give that ``it could happen to you.'' 
And I try to instill in them that the shortcuts of life can 
cause one to forfeit many opportunities that might come their 
way.
    Ms. Jackson Lee. So you have turned around to be of 
assistance by having an early release through good time?
    Mr. Mosely. Yes.
    Ms. Jackson Lee. And turned you around?
    Mr. Mosely. Yes.
    Ms. Jackson Lee. Professor Turley, again, if I could just 
point out, I think I just want to leave on the table the fact 
that we are not ignoring victims, the original victims of the 
incarcerated person who now may have the opportunity to come 
out because they are older, because they are 45 or 50. Can you 
just pointedly answer the question how do you resolve that 
conflict? There is a victim left, whether or not it was fraud 
or some other offense, again, and now someone is getting out 
short of the--I am going to go on the Federal system--the 
mandatory 35 years. They have served 17\1/2\, and they are 
coming out. How do you reconcile those two distinct aspects?
    Mr. Turley. I would be happy to answer that.
    First of all, I wanted to apologize to Mr. Krone. I meant 
to refer to Mr. Wrigley in his testimony in terms of the 
elimination of parole. I am sure Mr. Krone was wondering why he 
was being associated with the elimination of parole.
    But the answer, I believe, is, first of all, the standard 
of the 50 percent of the sentencing is not out of line with 
what you see in the State system in terms of time that is 
actually served before people become eligible for release, 
either under parole or with discounted time, under one rule or 
the other, and so it is not a great departure in that sense. At 
POPS, we use the average served for a crime, but that is a bit 
too fluid for a provision of this type. You are trying to 
create an automatic trigger because we no longer have a parole 
commission, and so we are trying to craft a law that will allow 
for the safe release of individuals under these criteria.
    As for the victims, I think that we have to speak to 
victims and the public and say that we have a responsibility. 
We have a system that is dysfunctional, that is generating 
crime, generating more victims. We are not really doing 
anything. We have a system that is basically a warehousing 
system. That is what we went to in 1983. We ripped up a lot of 
rehabilitative systems. We went into overcrowding.
    If you work in prisons like I do, you would have witnessed 
rooms that were dedicated to education, rehabilitation that 
were ripped out and just literally bunk beds put in. I have 
been in rooms where hundreds of men are basically held in giant 
settings with multiple bunks. We are warehousing them.
    So we do not have a true correctional system in any modern 
sense of that term with a rehabilitative element. We have a 
warehousing system, and as a result, recidivism is soaring. So 
what I would say to those victims is this: We want to guarantee 
that people serve time for these crimes, and we want to make 
sure they serve significant time, but we also want to make 
society safer, and we need a correctional system that is tied 
to that purpose, not warehousing, but to reduce crime by 
reducing people who commit crime. That is your recidivism.
    Ms. Jackson Lee. Mr. Chairman, just as I heard my good 
friend from Texas, Professor Turley ended where I would like to 
end. I think the legislative initiatives before us are to 
reduce crime, are to reduce the number of victims, are to make 
our communities safer, are to ensure that people who are 
released can be rehabilitated, that they can be contributing, 
that they can give back to the community, to get men, 
particularly in the African-American community, back into their 
home where their families need them, and I think that the 
populations that are most impacted are the numbers that are 
soaring in other areas. So I hope we can move forward on this 
theme, philosophy, which results in policy and law, and I 
certainly think we can do it in a bipartisan way and be 
effective in making America safer and reducing crime.
    I yield back. Thank you.
    I would like, excuse me, unanimous consent to put this 
article in the record, ``Why Early Release Programs, Especially 
for the Elderly and Infirm Prisoners Are a Good Way for 
Kentucky and Other States to Address Budget Shortages.'' I ask 
unanimous consent.
    Mr. Scott. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. I would like to thank the witnesses for their 
testimony today. Members may have additional questions which we 
will forward to you and ask that you answer as promptly as you 
can.
    Without objection, the hearing record will remain open for 
1 week for submission of additional material, and we have a 
list of materials already to be submitted: a letter from the 
ACLU, some articles from The New York Times, reports about 
Juvenile Life Without Parole and Sentencing from both Amnesty 
International and the Human Rights Watch, reports on reducing 
prison population from the JFA, the James F. Austin, Institute, 
and a chapter from the book ``Capital Consequences'' about Mr. 
Krone's specific case.
    Mr. Gohmert. Mr. Chairman, can I----
    Mr. Scott. The gentleman from Texas?
    Mr. Gohmert. I just had a question, clarification. Is one 
of the results of this hearing the inference by this Committee 
that 45 is elderly? I just wanted to be sure. [Laughter.]
    Mr. Scott. I think you and I both would not consider 45 
elderly.
    Mr. Gohmert. Okay. Thank you. I just wanted to be clear.
    Ms. Jackson Lee. Possibly in mind, though.
    Mr. Scott. Without objection, the Committee stands 
adjourned.
    [Whereupon, at 2:12 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
